<html>
<title> - RECOVERING FROM HURRICANE KATRINA: THE NEXT PHASE</title>
<body><pre>[Senate Hearing 109-399]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-399
 
                   RECOVERING FROM HURRICANE KATRINA:
                             THE NEXT PHASE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 14, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
24-244                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   Thomas R. Eldridge, Senior Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
         Michael Alexander, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Voinovich............................................     5
    Senator Levin with attachments...............................     6
    Senator Coleman..............................................    18
    Senator Akaka................................................    20
    Senator Domenici.............................................    21
    Senator Lautenberg...........................................    23
    Senator Coburn...............................................    25
    Senator Carper...............................................    27
    Senator Chafee...............................................    28
    Senator Dayton...............................................    29
    Senator Pryor................................................    30
Prepared statement:
    Senator Warner...............................................    69

                               WITNESSES
                     Wednesday, September 14, 2005

Hon. Pete Wilson, Former Governor, California....................    32
Hon. Patricia A. Owens, Former Mayor, Grand Forks, North Dakota..    35
Hon. Marc H. Morial, President and CEO, National Urban League, 
  Former Mayor of New Orleans....................................    40
Iain B. Logan, Operations Liaison, International Federation of 
  Red Cross and Red Crescent Societies...........................    43

                     Alphabetical List of Witnesses

Logan, Iain B.:
    Testimony....................................................    43
    Prepared statement...........................................   108
Morial, Hon. Marc H.:
    Testimony....................................................    40
    Prepared statement...........................................   104
Owens, Hon. Patricia A.:
    Testimony....................................................    35
    Prepared statement with attachments..........................    77
Wilson, Hon. Pete:
    Testimony....................................................    32
    Prepared statement...........................................    71

                                Appendix

Jim Haynie, President, National Association for Amateur Radio 
  (ARRL), prepared statement.....................................   111
International Bottled Water Association (IBWA), prepared 
  statement......................................................   114


           RECOVERING FROM HURRICANE KATRINA: THE NEXT PHASE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Coleman, Coburn, 
Chafee, Domenici, Warner, Lieberman, Levin, Akaka, Carper, 
Dayton, Lautenberg, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today the Committee begins an inquiry into the Hurricane 
Katrina disaster. I would like to thank my colleagues and our 
witnesses, and particularly my Ranking Member, Senator 
Lieberman, for their prompt cooperation on a matter of such 
urgency.
    In the months ahead, this Committee intends to conduct a 
thorough, deliberate, and fair review of the preparation for 
and response to this devastating hurricane--at all levels of 
government.
    We will ask the hard questions about the adequacy of 
planning efforts for this long-predicted natural disaster. We 
will explore the coordination among local, State, and Federal 
emergency management officials before and after the hurricane's 
landfall. And we will critically examine the legal structures 
and authorities that define who is in charge of assets that 
must be brought to bear in such a catastrophic event.
    Since the terrorist attacks of September 11, 2001, America 
has worked hard and invested billions of dollars to create an 
emergency preparedness and response structure that would bring 
together local, State and Federal authorities into one cohesive 
and effective unit. In its first major test since September 11, 
however, this structure failed to meet our expectations.
    At this point, we would have expected a sharp, crisp 
response to this terrible tragedy. Instead, we witnessed a 
sluggish initial response that was characterized by a confusing 
lack of unity of command, a lack of coordination among 
different levels of government, and a lack of communication--
sometimes even an inability to communicate at all--among 
government entities, first responders, utilities, health care 
providers, and other emergency workers.
    Some have said that these problems have been caused by the 
Federal Government's post-September 11 focus on terrorism. Our 
Committee will look at that issue, but I will tell you at the 
outset that I really doubt that is the problem. Much of our 
preparations for a terrorist attack are equally applicable 
whether the cause of the incident is a natural disaster, fire, 
or accident.
    For example, if the levees in New Orleans had been breached 
by a terrorist attack instead of a hurricane, we would still be 
faced with very similar evacuation, rescue, and recovery 
challenges.
    Another issue that we will examine is whether FEMA should 
be part of the Department of Homeland Security. Again, I will 
say at the outset that my inclination is that it should be part 
of DHS. Whether it is a terrorist attack or a natural disaster, 
FEMA plays a key role in the response.
    DHS includes offices that support preparedness at the State 
and local level as well as Federal agencies like the Coast 
Guard that play critical roles in planning and response. 
Including FEMA as part of DHS should promote better 
coordination with these agencies.
    Another question that is being debated is whether or not an 
outside commission should be formed to investigate Katrina. The 
answer to that question really has no bearing on our work here. 
Regardless of whether an outside commission is established, it 
is essential that Congress conduct an aggressive inquiry. We 
would be remiss if we ignored our clear responsibility to 
conduct oversight to identify why the preparation and initial 
response were so woefully inadequate. We must identify problems 
so that we can change the laws and institute reforms that only 
Congress has the power to implement.
    The purpose of our work here is not simply to place blame. 
Such an inquiry would be unproductive and misguided. Without a 
single human error, Katrina still would have been a natural 
disaster on an order of magnitude rarely seen on earth. But our 
inquiry must lay bare the painful evidence of human errors that 
added to the suffering. We must learn the lessons from Katrina, 
so we can better protect our people the next time a disaster 
strikes.
    In conducting this inquiry we are determined not to divert 
resources from the recovery efforts that are still at a 
critical stage. Ensuring that Federal, State, local, and 
private emergency efforts have the resources and the leadership 
needed must remain our first priority and our highest 
obligation.
    In that spirit, this first hearing will focus on how we can 
best assist the victims of Katrina, the 450,000 families that 
require long-term housing, the newly unemployed, the shuttered 
small businesses, the overwhelmed school systems, and the 
obliterated communities.
    We have with us here today witnesses who have led with 
distinction when faced with natural disasters. We will seek 
their advice on what we can do now, right now, to assist and 
comfort the victims of Katrina, to stabilize the economy of the 
Gulf Coast, and to plan for the reconstruction.
    Let me close with a word of thanks. Despite the failures 
and shortfalls of the response, there have been many more acts 
of courage and compassion. Many first responders and medical 
providers, the Coast Guard, the National Guard, active duty 
troops, private citizens, and, yes, FEMA employees have worked 
heroically and tirelessly. Neighbors have reached out to 
neighbors.
    One incredible fact that I learned last week from the Coast 
Guard briefing of this Committee, 70 percent of the Coast Guard 
employees based in the Gulf Coast who were heroically rescuing 
tens of thousands of people over the past 2 weeks, had lost 
their own homes in Hurricane Katrina. Yet they carried on and 
they did their job helping others.
    And throughout our Nation, Americans have done what they 
always do in times of crisis: They have opened their hearts, 
their wallets, and even their homes. Katrina has raised serious 
and troubling questions about how our governments respond to 
catastrophic events, questions that we will answer over the 
course of this investigation. But Katrina has also shown, once 
again, that the spirit and character of the American people 
give our Nation a resiliency to recover from any catastrophe.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman, for 
that excellent opening statement.
    The fact is that fate has given this Committee a very 
important responsibility. I suppose I would say fate and the 
Senate Rules have given this Committee a very important 
responsibility to investigate the conduct of the Federal 
Government, also to look at the State and local governments, in 
preparation for and in response to Hurricane Katrina.
    And what is required now clearly in the national interest 
is an independent-minded, open-minded, nonpartisan, no-holds-
barred investigation to see what worked and what did not work, 
what we have to be grateful for and what we ought to be angry 
and unsatisfied with in the governmental response. I know that 
our leaders are still negotiating here in the Senate and in the 
House the exact contours of that debate, but the fact is, one 
way or the other, this Committee, as you have said, has a 
responsibility to proceed because we are the Committee with 
oversight responsibility over the Department of Homeland 
Security and the Federal Emergency Management Agency, and we 
will proceed.
    I am confident that under your leadership we will proceed 
in exactly the nonpartisan, independent manner that the 
seriousness of this hurricane and what it revealed about 
government's incapacity, at least in this case, to respond to 
protect the American people in crisis.
    When I express my confidence in you and this Committee it 
is the result of experience, not just faith. We will do it 
because we have done it, and we will do it the right way 
because I am proud to say we have as a Committee done it the 
right way, most recently in the response to the 9/11 Commission 
Report, when we had a very thorough debate of the legislation 
in this Committee before we reported to the Senate. We had 2 
days of amendments and discussion and debate. Not a single one 
of those votes on those amendments broke on partisan lines, and 
that is exactly the spirit here in another hour of national 
urgency that is required of us, and I have no doubt that we 
will, as a Committee under your leadership, meet that test.
    This morning's hearing gives us an opportunity to begin to 
look at what we can do to aid the people of New Orleans and the 
rest of the Gulf Coast with their recovery in the aftermath of 
the destruction wrought by Hurricane Katrina. This, too, is a 
critical part of our oversight responsibility. This hearing is 
about today and tomorrow, not about yesterday.
    Our staff investigation of the preparation and response to 
Hurricane Katrina has begun, and when we are ready we will go 
in whatever the forum is to public hearings. This is not about 
that. This is about the future, and this is a moment when we 
hope to step in early to ensure that the Federal Government and 
the State and local governments together get the recovery and 
building process right, better than they got the preparation 
and response process.
    This is an opportunity to hear from experts, and we have 
some experienced ones before us, and to begin to lay down some 
markers on what should be done now and in the days ahead to 
help put these communities back on their feet.
    It is also an opportunity to begin to consider how we can 
make sure that we spend the more than $60 billion already 
rapidly approved by Congress--with billions and billions more 
likely on the way--wisely and efficiently, and that we will do 
together.
    Hurricane Katrina's path of destruction has caused, 
obviously, a loss of life and property beyond any experience in 
a single natural disaster event in our lifetimes. The personal 
and human toll from this storm on those directly affected has 
been immense, but it has also taken a toll on the millions and 
millions of other Americans who watched the hurricane and its 
aftermath with increasing shock, grief, then anger, and then I 
would say embarrassment, embarrassment at the government's 
failure to adequately protect its citizens affected by this 
hurricane, and embarrassment at the reality exposed by the 
hurricane, which was the other America of the poor who were 
left behind when the evacuations began post-Katrina and are 
left behind every day in cities and towns throughout our 
country.
    The American people did not like what they saw, and I think 
that is part of why they individually and in groups have 
responded with such generosity to help those who have been 
hurt. This is a moment of tragedy, but it is a moment of 
opportunity if we handle it well and right and strongly, to 
pull our country together, to help these people and this region 
recover, and in a larger sense, to deal with the lack of 
opportunity of all those who are left behind every day in our 
country.
    For me, as we focus today on what is happening now, it is a 
real opportunity to begin to restore the confidence so many 
people in our country have lost in our government as they 
watched the response to this hurricane, by showing that we can 
get the rescue, recovery, and rebuilding right, and that the 
government will play a critical, constructive leadership role 
in that.
    I want to thank our witnesses, Governor Wilson, Mayor 
Owens, Mayor Morial, and Mr. Logan, for being here today. They 
bring extraordinary experience to the table before us that can 
help us do exactly what we want to do, and that is what Senator 
Collins hopes that this Committee will be able to help.
    I say, finally, this country has a history, and it mirrors 
our national values and attitude, which is like individuals, 
communities, and organizations in life, everybody is knocked 
down at some point, or stumbles down at some point. The test is 
whether and how we get up, and I think we are ready to prove 
what we are made of again as a people, and we are again ready 
to prove, and committed to prove, that our government is 
prepared to be as competent as the American people have a right 
to expect that we will be.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Chairman Collins, thank you for holding 
this hearing today. I applaud your initiative and leadership in 
considering the next stage of the recovery effort. Hurricane 
Katrina may be the largest natural disaster that this country 
has ever experienced. The recovery effort will be monumental, 
and I am pleased that you brought such an experienced panel 
before the Committee to assist us as we proceed.
    It is great to have a former governor and two former mayors 
on the panel, and a distinguished guest from the International 
Red Cross. I must say, as a former mayor, governor, and county 
commissioner, the rubber meets the road when we have disasters 
on the city, county, and State level.
    I would first like to take this moment to extend my deepest 
sympathies to the victims and loved ones of this unprecedented 
disaster. I know all of our prayers and thoughts go out to 
those individuals.
    And, Madam Chairman, you would be interested to know that 
we worked with the Ethics Committee to create a Senate Katrina 
Fund as part of the Combined Charities Campaign. We are going 
to be urging all Senators and all members of our staff to 
contribute to this fund so that we can show our concern for our 
brothers and sisters who are suffering in that part of the 
country.
    I would also like to recognize the dedication of those who 
have offered tireless assistance to the victims of Katrina. To 
date 50,000 people have been rescued, 208,000 are housed in 
shelters around the country, and countless families have 
relocated out of State. It is amazing, the calls that all of us 
are getting from our constituents that say, ``I would like to 
take a family and take them in.'' It is just unbelievable, the 
outpouring that we are having in this country to help those 
that need help.
    There has been much criticism of the relief effort, but I 
applaud the over 80,000 Federal personnel on the ground 
responding, including 22,000 active duty personnel, 1,900 
reservists, almost 9,000 FEMA workers, 4,000 Coast Guard, and 
approximately 51,000 National Guard personnel. I also want to 
thank the 1,500 personnel from Ohio, 300 of which responded on 
Thursday night at the Super Dome, and hundreds more who are 
still on the streets of New Orleans and throughout Mississippi 
who are doing search and rescue and logistics. I am very proud 
of them, and I think we owe a debt of sacrifice to those 
individuals who were there and the families that are supporting 
them.
    Katrina's impact is unfathomable, and an entire region was 
irrevocably affected. I cannot conceive of a perfect evacuation 
or mitigation effort for circumstances of this magnitude. I 
know that we will all have questions about the timely response 
to this catastrophe, and in due time we will work to make sure 
these questions are answered.
    However, our responders have a job to do on the Gulf Coast 
and our objective should be to offer assistance and to speed 
recovery and respond to the needs of those impacted. We must 
provide them with the best information we can about whether or 
not they will have jobs and homes to return to so they can make 
very important decisions about what they are going to do with 
the rest of their lives.
    In addition to the recovery and rebuilding, we must take 
this opportunity to improve our capability to respond. 
Secretary Chertoff has made many recommendations for reforming 
the Department. Prior to Katrina, Secretary Chertoff said that 
FEMA should be removed from the Emergency Preparedness and 
Response directorate and made directly answerable to the 
Secretary of the Department. I look forward to hearing more 
about this proposal.
    In closing, I look forward to working with my colleagues to 
ensure that we conduct a measured and deliberate examination of 
the aftermath of Hurricane Katrina.
    Madam Chairman and Ranking Member, Senator Collins and 
Senator Lieberman, I am glad that you said that it is the 
responsibility of this Committee and its Members to determine 
what went right and what went wrong on the Gulf Coast. I think 
we have to be very careful in circumstances like this when we 
decide whether or not to implement an independent group or 
commission to do the work. It is our responsibility.
    I will never forget, when I ran for mayor I said, ``We are 
going to get into the bowels of the City of Cleveland,'' and 
when I ran for governor, ``We are going to get into the bowels 
of State Government.'' Well, we are going to get into the 
bowels of the Department of Homeland Security and make sure 
that the next time around it will be able to get the job done 
that we expect it to do.
    Chairman Collins. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Madam Chairman, thank you, and thanks to 
Senator Lieberman, for convening the hearing and for your 
leadership in the investigation, which is essential, into the 
events surrounding Katrina.
    I am glad that our first hearing is focused on the needs of 
the people who survived Katrina. Private generosity has been 
overwhelming, but it cannot meet most of the needs caused by 
the Katrina disaster. We need housing, both temporary and 
permanent, for as many as half a million individuals, health 
care, environmental clean-up, oil refinery reconstruction, 
removal of debris, road and bridge repair, and so forth.
    We have a special responsibility on this Committee in 
addition to oversight, reviewing the events and the failures 
surrounding the Katrina disaster. We must oversee the ongoing 
Federal spending which is already $62 billion. We have 
jurisdiction over the Department of Homeland Security, FEMA, 
and Federal procurement issues in general. So we have the 
authority specifically to oversee the laws that govern the 
spending of Federal money, including the Competition in 
Contracting Act.
    If contracts are being given to favorites instead of to 
people who are the most qualified and the most efficient; if we 
do not have a process to make sure that Federal funds are spent 
properly--in other words, without active ongoing oversight by 
this Committee, public support for the Katrina recovery effort 
will erode and deepen the distrust of the Federal Government, 
which is already plenty deep given the Federal failures 
following the catastrophe of Katrina.
    So that is a responsibility that I know we are going to add 
to the other responsibilities that we are undertaking.
    We have an opportunity later this morning to act in one 
area where we know we have an urgent need and where we have 
failed to provide the resources to local and State governments. 
That has to do with the ability of first responders to 
communicate with one another. Interoperable communications is 
listed by just about every mayor I have talked to, every county 
commissioner I have talked to, and about every governor I have 
talked to. Interoperable communications is either at the top of 
the list or high on the list.
    And yet, the U.S. Conference of Mayors found in a 2004 
report that 88 percent of the cities surveyed do not have 
interoperable communications capabilities with the Department 
of Homeland Security agencies, including FEMA. In addition, 83 
percent of the cities surveyed reported that they have 
interoperability communications problems with the Justice 
Department, including the FBI and other parts of the Justice 
Department. Seventy-five percent of the cities surveyed by the 
U.S. Conference of Mayors reported that they have not received 
any Federal funds for interoperable communications.
    We are going to vote in a few minutes on an amendment of 
Senator Stabenow, which would provide the first part, a down 
payment of the $15 billion needed to provide interoperable 
communications. It is an amendment that would provide $5 
billion of that $15 billion, which is so essential. So we can 
act as a Congress in a way we have not acted so far, to provide 
dedicated, focused funding for interoperable communications.
    Madam Chairman, there is a number of questions that I have 
set forth, including some, it seems to me, inadequate questions 
that have been even asked so far, relative to notice that was 
given by the FEMA Director, yes, on Monday night on television, 
to our leaders about the flooding that was taking place, and 
yet 24 hours later our leaders did not apparently have 
knowledge of the fact that we had this massive flooding in New 
Orleans. I lay out these questions in my opening statement. I 
would ask that the opening statement be made part of the record 
at this time.
    Chairman Collins. Without objection.
    [The prepared statement of Senator Levin with attachments 
follows:]

                  PREPARED STATEMENT OF SENATOR LEVIN

    In the wake of the greatest natural disaster to strike our nation, 
our topmost priority must continue to be to help the hundreds of 
thousands of persons injured and displaced by Hurricane Katrina. I am 
glad that our Committee's first hearing on the Katrina disaster is 
focused on their needs.
    If there is a bright spot in this crisis, it has been the 
generosity of the millions of Americans who are opening their hearts 
and homes to help. The generous contributions of aid and comfort to 
hurricane victims all across the country is America at its best. In 
Michigan, people have welcomed with open arms several hundred 
individuals and families into urgently prepared shelters, and are 
working hard for their recovery. I saw the outpouring of support from 
my constituents when the first group arrived at the Air National Guard 
Base in Battle Creek last Sunday.
    Private generosity cannot meet most of the needs caused by the 
Katrina disaster. We need housing, both temporary and permanent, for as 
many as 450,000 individuals. Health care. Environmental cleanup. Oil 
refinery reconstruction. Removal of debris. Road and bridge repair. 
Changes to make sure social security checks and veterans benefits can 
be received. New funding for interoperable communications equipment not 
only for Gulf region but throughout the United States.
    Congress has already appropriated $62 billion, with more to come. 
While other committees in Congress can address specific needs related 
to housing, health, and other Katrina-related problems, our Committee 
can and should contribute to at least two essential tasks: Spending 
oversight and accountability.
    First, oversight of ongoing Federal spending. With our jurisdiction 
over the Department of Homeland Security (DHS), the Federal Emergency 
Management Agency (FEMA), and Federal procurement issues, our Committee 
has the authority needed to undertake an intensive oversight effort to 
help ensure that DHS and FEMA are responsible stewards of the billions 
of taxpayer dollars that are going to be paid out. Questions are 
already flying about no-bid contracts for huge sums of money going to 
favored contractors or contractors with questionable track records. 
Active Congressional oversight is essential to ensuring responsible 
spending and vigilance against waste, fraud, and abuse.
    Without active ongoing oversight, public support for the Katrina 
recovery effort will erode. I am glad to learn that the DHS Inspector 
General has set up special teams to monitor and audit Katrina-related 
spending, but that task is no huge that it may be necessary to 
establish a special Inspector General with that sole responsibility. 
GAO also has a role to play in overseeing this spending, and we should 
call upon its expertise. In addition, we need to find out why FEMA is 
using no-bid instead of competitively bid contracts, why these 
contracts are so massive in scope, and how contractors were selected. 
As our Chairman will vividly remember, it was this Committee that 
authored the Competition in Contracting Act, and it is fitting and of 
critical importance that we help oversee Katrina spending to protect 
taxpayers.
    Second, it is beyond dispute that emergency planning and response 
failures took place both before and immediately after Katrina hit. Our 
Chairman and Ranking Minority Member have set a course for this 
Committee to identify, analyze, and understand those failures, and 
insist on accountability for them. Without understanding and 
accountability for poor performance, there is no incentive or ability 
to improve. By finding out what went wrong, we can strengthen our 
preparedness for future disasters, whether natural or caused by 
terrorist attack.
    I am particularly interested in finding answers to questions about 
the Federal Government's immediate response to the hurricane and how to 
prevent similar types of problems in the next disaster, including the 
following:

    <bullet>  Why was there a massive communication failure during 
Katrina, and what can be done to prevent this problem in the future? 
One of the key problems exposed by the September 11 attack was our lack 
of interoperable communications equipment, yet 4 years later, we seem 
no better off. In fact, a June 2004 U.S. Conference of Mayors report 
found that 88 percent of the cities surveyed still do not have 
interoperable communications capabilities.

    <bullet>  Why did it take so long for the department of Defense to 
join the hurricane relief effort? I don't believe there is a problem 
with the law in this area, but we need to make sure. And why did Navy 
commanders in Pensacola, Florida restrain their helicopter pilots from 
providing search and rescue services to people in dire need?

    <bullet>  Did evacuation plans exist for people with special needs, 
such as the elderly, the sick, the disabled, and those without cars or 
the resources to leave town? If so, why were these plans so poorly 
executed?

    <bullet>  At the Superdome, 200 National Guard troops guarded the 
perimeter of the facility but apparently thought they had no authority 
to provide security for the thousands of persons inside the dome. Why 
was security so poorly planned and executed, and why did it take so 
long to evacuate the persons to a safe location?

    <bullet>  When tens of thousands of individuals began gathering at 
the Convention Center, no government agency took the steps necessary to 
recognize the emerging problems for the people stranded there and 
provide them with security, food, and water. Why did it take so long to 
get water, food and security to the convention center?

    <bullet>  Last Saturday, a newspaper article stated, ``In Louisiana 
and Mississippi, civilian and military leaders said the response to the 
hurricane was delayed by the absence of the Mississippi National 
Guard's 155th Infantry Brigade and Louisiana's 256th Infantry Brigade, 
each with thousands of troops in Iraq.'' The National Guard has since 
reported that, on the day of the hurricane, it had only about 34 
percent of the equipment it should have had, due to deployments to 
Iraq. To what extent was our domestic preparedness hurt by the 
extensive deployment of National Guard troops and assets in Iraq?

    <bullet>  It is critical that we understand why the Federal 
response was so slow during the first 2 days after the hurricane hit. 
Levees were breached and broke when the hurricane hit on Monday 
morning, August 29. The resulting flooding was widely reported on 
television throughout the day on Monday. According to a report in the 
New Orleans papers, Army Corps of Engineers New Orleans project manager 
Al Naomi said that reports of the flooding and breaches were 
transmitted to Federal and State officials: ``It was disseminated. It 
went to our [Office of Emergency Preparedness] in Baton rouge, to the 
State, FEMA, the Corps. The people in the field knew it.''

       On Monday night, the former FEMA director, Michael Brown, 
announced on television, on MSNBC, that New Orleans was flooding, and 
that he had told the President of this. He said: ``I'm just beginning 
to receive reports from my folks in the field of literally tens of 
square miles of homes inundated with water up to the roofs. I mean I've 
already told the President tonight that we can anticipate a housing 
need of at least in the tens of thousands.''

       About an hour later that evening, Mr. Brown told CNN: ``And I 
think what we see is, sure, New Orleans dodged the bullet, in the sense 
that the catastrophic disaster we thought would occur downtown, moved 
slightly to the east, 30 or 40 miles. But what that meant is that we 
now have literally neighborhood after neighborhood that is totally 
engulfed in water.''

       Despite this information, DHS Secretary Chertoff, Secretary of 
Defense Rumsfeld, and General Myers have said that they did not learn 
of the levee breaks and severe flooding until late Tuesday morning or 
afternoon. They said that, after reading the newspapers on Tuesday 
morning, they still thought that New Orleans had ``dodged the bullet.''

       I would like to know why some of the most senior people 
responsible for emergency response and preparedness were either 
misinformed or uninformed about the actual conditions in New Orleans 
for so long.

       Presumably if they had learned of the dire situation 24 hours 
earlier, on Monday afternoon instead of Tuesday afternoon, more would 
and could have been done. Instead, critical response time was lost. We 
need to find out how this communications break down happened--who knew 
what, when they knew it, and what they did with the information. This 
analysis is critical to preventing a similar communications break down 
in the next disaster.

    Again, I would like to commend Senators Collins and Lieberman for 
beginning this inquiry into the Federal response to the hurricane. This 
important task goes to the heart of American security.

[GRAPHIC] [TIFF OMITTED] T4244.052

[GRAPHIC] [TIFF OMITTED] T4244.053

[GRAPHIC] [TIFF OMITTED] T4244.054

[GRAPHIC] [TIFF OMITTED] T4244.055

[GRAPHIC] [TIFF OMITTED] T4244.056

[GRAPHIC] [TIFF OMITTED] T4244.057

[GRAPHIC] [TIFF OMITTED] T4244.058

[GRAPHIC] [TIFF OMITTED] T4244.059

    Senator Levin. I thank the Chairman.
    Chairman Collins. Senator Coleman.

              OPENING STATEMENT BY SENATOR COLEMAN

    Senator Coleman. Thank you, Chairman Collins, for your 
expeditious and conscientious way that you have brought this 
hearing about. The Nation is full of questions and waits for 
answers, and we begin to meet that urgent need today.
    I also want to express my appreciation for the foresight of 
the Chairman and the Ranking Member to focus on the road ahead 
today before we collectively look back, and we will 
collectively look back, and we need to get answers of what went 
wrong, but it is important to look to the future.
    Some may say that a storm of this magnitude so overwhelmed 
our expectations that it destroyed our ability to respond. 
Others will say that all things are basically manageable and 
that this was primarily a failure of systems of government in 
which people, regular people, depend on for protection. I think 
each is partially right and each is partially wrong, and I 
second the words of my colleague, the former mayor and 
governor, that we need to get to the bowels of Homeland 
Security and figure out what was not done, talk to folks at the 
local level and State level, understand what was beyond the 
scope of government, and pull all of that together.
    I served as Mayor of St. Paul, and in that capacity I had 
the opportunity to travel, and see close hand, the disaster 
that occurred in Grand Forks, North Dakota, and the tremendous 
leadership of Mayor Owens to respond to that disaster. It is 
great to have you here. That flood and subsequent destruction 
ravaged an area that was already hard hit by economic hardship.
    I recall meeting with a local official in East Grand Forks, 
right across the river, and I asked him for the total financial 
assistance the area would need to receive. He said to me, ``A 
few million dollars less than Kevin Garnett just received in 
his new NBA contract.'' I think an event like this brings all 
questions of values into sharp focus, and I think that is 
important.
    An observation, first of all, I think we all heard the 
statement ``every crisis is an opportunity in disguise.'' For 
those who lost their lives, their homes and everything, this 
tragedy wears no mask, and we need to confront the painful 
reality of what has happened to them and deal with that. But 
for the rest of us, Hurricane Katrina is an opportunity to 
learn lessons that may spare another community of a similar 
fate.
    I also am looking forward to the prospect of a brighter 
future. When I was mayor my mantra was ``Hope and confidence 
yield investment.'' Hope comes from government doing its 
business right; a sense of confidence comes from people 
believing that there are those who are going to be there when 
they need them. Hope comes from a brighter vision for the 
future.
    I do believe that we have to take advantage of this time to 
build that brighter future, not just rebuild what was. There 
are 400 schools that have been destroyed. Do we rewire them in 
20th Century technology, or do we do 21st Century technology? 
Part of my questions will be, how do we, at the Federal level, 
help bring to the table some of the ideas of urban planning and 
vision that are out there but do not override local concern and 
direction? Somehow we have to bring that together. This is a 
moment of opportunity. We can bring hope to the people of the 
Gulf Coast. We should be doing that, not alone by ourselves, 
but working in partnership. So I hope that we get there.
    We will have time to look back, and we will look back, but 
let us take advantage of this time to look forward and to make 
sure that we are building that future of greater hope and 
greater confidence and ultimately greater investment in the 
communities that have been so ravaged.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Coleman follows:]

                 PREPARED STATEMENT OF SENATOR COLEMAN

    Hurricane Katrina will likely be noted as the most horrific and 
costly natural disaster in our Nation's history. I urge my colleagues 
to not lose sight of this fact as we begin, what I trust will be, an 
exhaustive investigation into the Federal, State, and local response to 
this unprecedented disaster. Moreover, I appreciate the foresight of 
Chairman Collins and Senator Lieberman to begin this oversight process 
by looking forward, before looking back. Our first priority must be to 
quickly aid the victims that are eagerly awaiting our assistance, 
rather than immediately beginning a process of recriminations.
    I am confident we--the Senate, the government, and the Nation--will 
learn many important lessons in the months to come. However, our focus 
should now be on the massive recovery and re-building process ahead. 
Restoration is not only critical for the displaced citizens of New 
Orleans, but for the morale of all Americans. In the wake of the 
devastation that ravaged New Orleans, we now have a unique opportunity 
to not only rebuild, but also to revitalize New Orleans by utilizing 
the most innovative technology and infrastructure available in the 
process. However, I am concerned that without the presence of strong 
leadership and planning, the citizens, the schools, and the business 
community will have no direction.
    Yesterday, I along with several of my colleagues in the Senate, who 
also were former mayors and governors, sent a letter to President Bush 
urging the creation of a New Orleans Rebuilding Commission. We envision 
a high level, independent panel of experts, appointed by the President, 
to restore and redesign the city of New Orleans.
    The Commission will address the environmental, social, and cultural 
elements of the city as it develops a comprehensive urban re-design 
plan. A coordinated solution brought forth by many parties who 
understand the multiculturalism, geography and history of the city will 
ensure that while the face of the city may change, its soul will remain 
intact.
    I would be remiss if I did not mention that while we do not want 
this investigation to interfere with recovery efforts, we urgently need 
an accounting of lessons learned at all levels of government--Federal, 
State, and local. Our response plans failed. Our communication 
infrastructure failed. We believed that these problems were solved 
after the brutal attacks of September 11. Unfortunately, much work 
remains to ensure a fluid response to the next disaster--whether 
natural or man-made. We were provided advance notice of the likely 
devastation to be wrought by Hurricane Katrina and our response failed. 
Terrorists will provide no such warning.
    It is imperative that we ensure specific and demonstrable plans are 
available for all levels of government and for all types of disasters. 
Not only do we need plans--we need to test them regularly to ensure an 
adequate response becoming of the U.S. Government. I look forward to 
actively participating in this investigation.
    Finally, we need to do all we can to assist the victims of this 
disaster. We will learn many important lessons from this unprecedented 
disaster and our plans will be improved. Yet, for the next few months 
our thoughts and prayers need to be with the victims of this tragedy 
throughout Mississippi, Alabama, and Louisiana.
    Thank you, Chairman Collins.

    Chairman Collins. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman and 
Ranking Member Lieberman. I wish to compliment both of you for 
once again taking the lead on an issue so critical to this 
Nation, the response to Hurricane Katrina.
    I also want to welcome our distinguished panel, 
representing State, county, and national organizations, to this 
Committee hearing.
    The devastation to the Gulf Coast region--what can I say--
is staggering. To the millions of Americans affected by this 
catastrophe, I extend my prayers for those who have lost their 
lives and for those who are in mourning and those who are 
suffering.
    We have the difficult task of making sure that those in 
need and those who seek to provide relief are served well by 
their government. This national emergency is a humanitarian 
crisis of enormous dimension. The world has witnessed tens of 
thousands of Americans lacking the basic necessities of food, 
water, shelter, safety, and medicine. Sadly, when Katrina's 
victims needed the Federal Government most, there was a crisis 
of leadership. I am not pointing fingers or assigning blame, 
but I know that many Americans are angry and are seeking 
accountability.
    I have received hundreds of letters from my own 
constituents from Hawaii. Hawaii is also threatened by 
hurricanes and has been badly battered in the past by them. It 
is the hurricane season now in Hawaii. My constituents want to 
know what their leaders did wrong and what they did right. They 
want to know how the government can do better. They want to be 
assured that if Hawaii is hit again that they will be helped. 
All Americans want this assurance.
    Since September 11, 2001, the Congress has given 
considerable attention to making Americans more safe. Yet there 
were disturbing similarities between Hurricane Katrina and 
September 11, similarities in what was known beforehand and how 
the government responded to pending dangers.
    On September 11, we found that the President and other 
senior leaders received intelligence and law enforcement 
reports about imminent threats to Americans. In the case of 
Katrina, the National Weather Service tracked the hurricane for 
a week across the Atlantic and through the Gulf of Mexico, and 
the Administrator of NOAA rightly stated, ``This storm was 
reported as widely as any I have ever seen.'' Moreover, there 
were numerous studies and news reports about the dangers this 
strong hurricane would pose to the levees.
    In the 4 years since September 11, we should have done a 
better job in preparing to protect Americans. This 
unprecedented disaster is not only a test of our Nation's 
character, but it is also an opportunity to improve. We need to 
examine our national priorities and give greater attention to 
the needs of Americans, and even think of evaluating the 
structure of DHS and its response capacity, and to search for 
ways to do better.
    Thank you, Madam Chairman. I welcome our witnesses and look 
forward to their testimony.
    Madam Chairman, I have a longer statement that I request to 
be made part of the record.
    Chairman Collins. Without objection.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA

    Thank you, Madam Chairman and Ranking Member Lieberman.
    I wish to compliment both of you for once again taking the lead on 
an issue so critical to this nation--the response to Hurricane Katrina.
    The devastation to the Gulf Coast region is staggering. To the 
millions of Americans affected by this catastrophe, I extend my prayers 
for those who have lost their lives and to those who are in mourning. 
We have the difficult task of making sure that those in need, and those 
who seek to provide relief are served well by their government.
    Over 90,000 square miles have been impacted by Hurricane Katrina--
an area as large as Great Britain. We know that hundreds of thousands 
of Americans have lost their homes and worldly possessions. Loved ones 
and strangers alike have opened their homes and hearts to those who 
have been forced to seek refuge. Much of New Orleans was submerged 
under flood waters that have since become a polluted, toxic swamp, 
endangering the health and lives of storm survivors and their brave 
rescuers--a major U.S. city of a half-million people rendered 
uninhabitable. Entire communities in Mississippi and Alabama have been 
wiped out.
    This national emergency--which was televised worldwide--is a 
humanitarian crisis of enormous dimension. The world has witnessed tens 
of thousands of Americans lacking the basic necessities of food, water, 
shelter, safety, and medicine.
    Sadly, when Katrina's victims needed the Federal Government most, 
there was a crisis of leadership. On Friday, September 2, 4 days after 
the battered levees broke, victims in major shelters reported not 
seeing a single Federal official. Organizations like the Red Cross and 
the Salvation Army, along with private citizens and businesses sought 
to rescue and bring relief to the Gulf residents.
    I am not pointing fingers or assigning blame. But I know that many 
Americans are angry and are seeking accountability. I have received 
hundreds of letters from my own constituents. Hawaii is also threatened 
by hurricanes and has been badly battered in the past by them. It is 
the Hurricane season now. My constituents want to know what their 
leaders did wrong and what they did right. They want to know how their 
government can do better. They want to be assured that if Hawaii is hit 
again that there will be help. All Americans want that assurance.
    Since September 11, 2001, the Congress has given considerable 
attention to making Americans more safe. Yet there are disturbing 
similarities between Hurricane Katrina and September 11. Similarities 
in what was known beforehand and how the government reacted to pending 
dangers.
    On September 11, we found that the President and other senior 
leaders received intelligence and law enforcement reports about 
imminent threats to Americans. In the case of Katrina, the National 
Weather Service tracked the hurricane for a week across the Atlantic 
and through the Gulf of Mexico, and the Administrator of the National 
Oceanic and Atmospheric Administration rightly stated ``this storm was 
reported as widely as any I have ever seen.'' Moreover, there were 
numerous studies and news reports about the dangers that a hurricane of 
this magnitude would pose to the levees.
    In the 4 years since September 11, we should have done a better job 
in prepared to protect Americans.
    This unprecedented disaster is a test of our Nation's character. It 
is also an opportunity to improve.
    We need to re-examine our national priorities and give greater 
attention to the needs of Americans and to search for ways to do 
better.
    Thank you, Madam Chairman. I welcome our witnesses and look forward 
to their testimony.

    Chairman Collins. Thank you. Senator Domenici.

             OPENING STATEMENT BY SENATOR DOMENICI

    Senator Domenici. First, Madam Chairman, I want to say to 
both of you that I believe it is imperative that you proceed as 
you have started today.
    A couple of statements that have been made here, I think, 
deserve being repeated. Senator Lieberman, you have approached 
this, in my opinion, in terms of looking at what went wrong, as 
a Senator should, not as a partisan Senator. You have said this 
Committee should find out what went right and what went wrong. 
Inherent in that statement is that you think that there is 
sufficient competence in Congress for a congressional 
committee, structured as we structure committees, to do this.
    As a long-time Senator, I just cannot believe what I am 
hearing these days. We have a problem like this, and it is 
instantly stated by some that Congress cannot answer this 
question, that it has to have some special outside committee. I 
would assume implicit in that statement is a belief that we 
would play politics, that we would not appropriately set 
responsibilities in things achieved and actions that failed. I 
do not believe we need an outside committee every time there is 
a problem in this country. We ought to investigate such 
problems, whether it is this Committee or whether our 
leadership establishes another committee, but it should be a 
congressional investigation by a committee with the same kind 
of virtues and the same kind of liabilities that standing 
congressional committees have.
    So I thank you for that. I do not know that you expected it 
to be interpreted as I have, but I nonetheless believe it is 
imperative that it be stated. You are not asking that another 
committee be appointed, and I do not think you would be upset 
if the leadership appointed a congressional committee and you 
were on it, which you probably would be. Some of us would not 
be on it, and maybe some would be upset, but not every Senator 
is on this Committee either, so some are going to be upset 
anyway. Everyone wants to hold their own hearings, but that 
cannot be. Enough of that issue. [Laughter.]
    Second, let me say one Senator suggested that we ought to 
quickly fund an amendment on the floor that asks for telephone 
interoperable communications. I am not sure we should do that. 
Why am I not sure? Because I do not know what kind of plan we 
have for the recovery of the area. That might not be the most 
important thing we have to do. We ought to find out what 
rehabilitation we are going to do, and then start to fund that 
rehabilitation, with the exception of those things that are 
absolutely imperative and must be done immediately. To do 
otherwise, as it appears we are headed, leads me to the 
conclusion that we are on a road to failure in the way we are 
doing things.
    Mr. Governor, my friend, you know what is going to happen. 
The people in charge are not going to have enough time to do 
their work because every committee up here is going to have 
them up here testifying as to what we can do for you. They are 
not going to have enough time to figure out what they ought to 
do for the area.
    So I am going to repeat here what I have said a number of 
times. The President of the United States should appoint a lead 
person as coordinator and set up a coordinating office, and do 
it quickly with the consent of the governors and mayors so it 
runs in deference to them, not contrary to them. The sooner the 
better, I repeat.
    Now, Madam Chairman, I know that does not sit well with 
some because some think they should be doing that, and that is 
fine. I wish the President could understand what I am saying 
because I think he is not embarrassing himself by doing it, he 
is not admitting defeat by doing it, rather he is setting a 
management structure in place.
    Last, how many Americans and how many Senators know that 
there exists within Homeland Security an institute, a modeling 
institute, called the National Infrastructure Simulation 
Analysis Center, NISAC. Perhaps you do, Madam Chairman?
    It is a center that has plugged into it information whereby 
you determine what areas in the country and what events in the 
country could bring the largest disasters. They already predict 
which one is the worst. It is the earthquake of San Francisco. 
And it says, if that happens, here is the damage. Now, do you 
want to prepare for it or do you want to wait until it happens, 
or is it too unlikely to happen that you should not prepare for 
it? I do not know. But nobody has studied that.
    It said the second worst one, believe it or not, was this 
one. It was there. They modeled it out and said this is what 
will happen. They have No. 3, they have No. 4. I believe they 
have the first 20. Should we do something about that? I would 
say you bet. The President and Congress should say, ``What are 
they? Are they accurate?'' If they are, be honest. I submit 
some of them you cannot prepare for because they are so big, 
and while we are talking about who failed here, I submit that 
what really happened is that Mother Nature decided that we were 
going to get the most devastating storm that could ever hit 
America. And most of the damage we could not avoid. We can talk 
about who was 1 day late, 24 hours late, 36 hours late, but the 
truth of the matter is that Katrina was so gigantic and the 
aftermath of that event is so big that 1 or 2 days of 
preparatin and knowing who planned what and who did not is not 
going to solve the major problem that the Good Lord, if you 
believe in God, just put on this area something you could not 
fix. It happened and then we have to try to fix it.
    I hope that people do not think that 1 day, 2 days here or 
there would have avoided the devastation that exists because of 
Katrina because it could not have. And I hope that comes out, 
too, when Katrina response is evaluated.
    I took too much time, but I really believe what I have said 
was not intended to say anything about this Committee. I think 
you have done a terrific job and you should have primary 
responsibility. If Congress is going to do it, you should have 
prime responsibility.
    I thank you for the time.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT BY SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman, for 
convening this hearing. I have a longer statement which I would 
ask unanimous consent be included in the record.
    Chairman Collins. Without objection.
    Senator Lautenberg. One of the things that strikes me is, 
as we watched events unfold there, the bravery and the courage 
of the people who served in the rescue mission. The Coast Guard 
touched everybody's heart when you saw those baskets drop down 
virtually from the sky and pick people off rooftops. It was an 
incredible deed of courage. The winds were blowing, the sea was 
stormy, and it was repeated by other departments of government. 
One of the things that comes out, as I review events, is that 
this constant refrain that we hear about shrinking the size of 
government, getting it down to so small that we can drown it in 
the bathtub, where would we have been without government's 
intervention in this even though there is plenty of fault to go 
around?
    So I think we have to rethink the philosophy that pervades 
our society and say government is not evil. We do not do 
everything right, but we do a lot of things that are essential, 
and I am particularly pleased that we are going to have this 
review. I am mindful of where we are when I look at a story in 
today's Washington Post, in which Tom Kean, respected former 
governor from the State of New Jersey--and Pete Wilson, I know 
that you know Tom Kean, having served with him, and by the way, 
Governor Wilson and I were in the class of 1982, and it hardly 
seems that long ago because neither of us has aged in that 
period of time. [Laughter.]
    The fact of the matter is that unless we take the lessons 
from history--it has been said by Santiama the poet--we are 
doomed to repeat them. So we cannot simply say stop the blame 
game and let us turn to the future. The fact is that unless we 
really understand what took place, then we are operating 
without full thought.
    And Tom Kean issued a statement today in which he said that 
Congress has been delinquent, not his word exactly, but he said 
that--you know he headed the 9/11 panel, and we all in this 
Committee think a pretty good job was done there. He said that 
the bungled response to Katrina lay bare how unprepared the 
Nation remains for a catastrophic event, whether it is another 
terrorist strike or a natural disaster.
    Senator Domenici said something that was absolutely right. 
When something of this magnitude happens, you cannot prepare 
perfectly for all the eventualities, but we at least ought to 
have plans that do not include cronyism or preferred 
contractors or things of that nature or people who do not have 
experience being assigned tasks that they never had any idea 
about how to handle.
    While I commend the leadership of the Committee for 
starting this debate, it is obviously going to be a long, at 
times I think, painful debate, but we should not run or hide 
anything that was there in the past because those lessons, 
though painful, are critical to how we plan for the future.
    Thank you very much.
    [The prepared statement of Senator Lautenberg follows:]

                PREPARED STATEMENT OF SENATOR LAUTENBERG

    Thank you Madam Chairman for convening this hearing.
    Hurricane Katrina was one of the worst disasters to strike our 
nation. It was an act of nature, compounded by a failure of leadership 
on the part of our Federal Government.
    We all want to put the mistakes of the last few weeks behind us, so 
we can get on with the daunting task ahead.
    But we can't ignore the mistakes of the last 2 weeks. We need to 
learn from them. If we fail to heed the lessons of the past, we will 
jeopardize our success in the future.
    And the mission before us now is too important for us to fail. So 
we must take an unflinching look at why our government failed the 
people of the Gulf coast in their hour of need. We must also make sure 
that help is reaching those who need it. We have appropriated $62 
billion to address the needs of Katrina's victims, and begin rebuilding 
their communities.
    Most of that money will be administered by FEMA. To ensure that 
those dollars are spent wisely, this Committee must be certain that 
FEMA is being managed in a professional and competent manner.
    There is no place for cronyism in FEMA. By the same token, this 
unprecedented event must not be used as an excuse to dole out 
sweetheart contracts for politically connected companies.
    Imagine my surprise when the Halliburton corporation received the 
first contract in the aftermath of Katrina! The Shaw Group has also 
received a contract for $100 million dollars. That company is 
represented by Joe Allbaugh, a former FEMA director. Mr. Allbaugh came 
to FEMA with a great deal of experience running political campaigns.
    Mr. Allbaugh brought along his college roommate, Michael Brown, who 
eventually took Allbaugh's job at FEMA. Mr. Brown's lack of relevant 
experience may have cost lives and hampered rescue efforts.
    According to a Washington Post poll published this week, a majority 
of the American people are concerned that the government isn't doing 
enough to prevent fraud and corruption in the rush to award billions of 
dollars in contracts.
    We need to bolster the confidence of the American people, and 
ensure that our resources go to those who really need help and are not 
wasted. Thank you Madam Chairman.

    Chairman Collins. Thank you. Senator Coburn.

              OPENING STATEMENT BY SENATOR COBURN

    Senator Coburn. Madam Chairman, thank you, and I apologize 
to our panelists. I am on the Judiciary Committee and have left 
that because of the importance of this, and I will have to 
leave this hearing shortly--I have a statement I would like 
introduced into the record if I may.
    Chairman Collins. Without objection.
    Senator Coburn. I would like to make two quick points. I 
have a short-lived history of politics, but the one thing I 
appreciate on the leadership of this Committee is the 
nonpartisan nature under which Senator Lieberman and Senator 
Collins conduct this Committee. If there is anything that is 
hurting our country most it is the divisiveness of the 
politicians that use partisanship as a tool with which to make 
political gains rather than to solve problems.
    Senator Lautenberg mentioned laying the blame. The problem 
is not laying the blame. The problem is fixing the problem. 
What is the problem? How do we fix it? The blame will be 
evident in the facts rather than the pointing of fingers, and 
it is my hope that this Committee can model through its 
leadership a behavior that examples to everybody else in 
Congress.
    My friend, Senator Voinovich, yesterday in our steering 
committee or our caucus, made the point that we have a 
committee to look at Homeland Security and FEMA. It is this 
one. I do not believe we need another committee. I trust the 
Members of this Committee to do an open, honest, frank 
appraisal of what went wrong, how we fix it, how we make the 
adjustments.
    The third point I would make is what history teaches us 
about sacrifice. President Roosevelt expanded Federal authority 
a great deal in the face of the Great Depression, but what 
everybody else does not realize is that during World War II he 
cut discretionary spending by 20 percent. What everybody else 
does not realize is that President Truman cut it 28 percent 
during the Korean War. We are in the midst of a war. We have 
the biggest national tragedy that we have ever faced in our 
country.
    I just got an e-mail. The State of Montana has offered to 
return all Federal earmarks to the Federal Government in the 
face of the tragedies and financial difficulties in which we 
find ourselves. They are leading by example. We need to do 
that. The American people have already done it in the opening 
of their hearts in how they have responded to this tragedy. It 
behooves us to live up, as Members of Congress, to the examples 
set before us by the common citizens of our country, and if we 
cannot do that, and if this is nothing but a partisan battle to 
fix this problem, then I believe the country needs a new set of 
leaders, leaders who can look past partisanship to solve the 
very grave, difficult, and real problems that we face.
    As I said on the floor, and I will finish, we have two 
national tragedies, this one that occurred along the Gulf 
Coast, but the financial tragedy that is in front of us as a 
Nation that will impact the way of life and the opportunity for 
the generations that follow us. We can do no less than leave 
them the same heritage that was left for us, which is one of 
sacrifice to create opportunity for the future.
    I thank you, Madam Chairman.
    [The prepared statement of Senator Coburn follows:]

                  PREPARED STATEMENT OF SENATOR COBURN

    Thank you, Madam Chairman. I appreciate you holding this hearing, 
and I especially appreciate the leadership shown by you and the Ranking 
Member in focusing this hearing, as the title says, on where we go from 
here in response to Hurricane Katrina.
    There has been too much attention paid to the political finger-
pointing in the wake of this disaster, and not enough attention paid to 
the generosity and hard work put into the recovery or how we are going 
to finance the massive costs of our relief efforts.
    I also appreciate our panelists who are here today. You each have a 
unique and valuable perspective on this problem, and I look forward to 
reviewing your testimony.
    I do have to apologize in advance. As the only member of both this 
committee and the Judiciary Committee, I may be required to leave to 
tend to the confirmation hearing of Judge John Roberts.
    I spoke on the floor about this last week, but I would like to 
reiterate to my colleagues my strong belief that we need to keep in 
mind the sacrifices made by past generations when paying for disaster 
relief.
    Many remember President Franklin Roosevelt for his expansion of 
Federal authority and power in the face of the Great Depression. Less 
well known is the fiscal courage he showed in response to the disaster 
of Pearl Harbor. Following that tragedy, President Roosevelt realized 
the need for our country to rearrange its priorities. Between 1942 and 
1944, he cut nondefense spending by 20 percent. Among those programs he 
cut were his own pet programs, the Civilian Conservation Corps, the 
National Youth Administration and the Work Projects Administration--
three programs which represented one-eighth of the Federal budget.
    Faced with the outbreak of the Korean War, President Harry Truman 
cut non-defense spending by 28 percent. Again,when faced with a crisis 
which required a significant financial commitment, the leadership of 
the United States made the tough choice and made the necessary cuts in 
spending.
    Both of these presidents realized the need for fiscal restraint in 
a time of crisis and made the tough choices which benefited Americans 
in the long term. It wasn't the easiest thing to do for that generation 
of Americans, but it served to the benefit of future generations. Yet 
many seem uninterested in learning from these examples in order to 
provide a better future for our own children and grandchildren. 
Throughout our country, Americans are making sacrifices to assist those 
effected by this disaster, yet there is no sacrifice on the part of 
Congress.
    It means our grandchildren are going to have a far lower standard 
of living as we try to continue to load this debt on them. That is not 
opportunity. That is not a heritage I want to be involved with. I want 
to follow the heritage of our forefathers and the great generation of 
World War II where sacrifice was made.
    With the current Katrina aid included our deficit will be $670 
billion this year. That is the real deficit. That comes to over $2,000 
per man, woman, and child in this country this year alone. We will 
borrow internationally this year $1.4 trillion. How many years do you 
think the international financial community will continue to allow us 
to borrow that money without some cost coming home?
    The President, in his budget proposal this year, recommended 99 
programs to be eliminated that did not meet an assessment rating 
program that was developed by OMB. That program was many times agreed 
to by many people in this body. That was $8.8 billion. There is not the 
courage coming from the Executive Branch To offer those, to say we are 
not going to spend another $8.8 billion of our grandchildren's money.
    Last year, 2004, the Federal Government overpaid $41.5 billion for 
things it bought or handed out. That would nearly pay for our initial 
Katrina funding, if we would eliminate that. We can eliminate it. We 
choose not to do the oversight that is necessary to find the problems 
to make up more efficient, to accomplish the very goals to create the 
opportunity in the future for the next generation.
    With all of this financial mismanagement, it is obvious that the 
money we direct to aid those along the Gulf Coast impacted by Katrina 
should be closely monitored. We need a controller for this money under 
the Office of the President to make sure it is spent properly. I am 
going to offer that legislation today to make sure it is spent right. 
The President has authorized in good will an inspector general increase 
to look at it, but they won't be controlling the money. What they do is 
see how it is spent after the fact. We need somebody in charge of 
spending before it is spent to make sure it is a priority before it 
goes down there, as we should be doing here.
    Thank you, Madam Chairman.

    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT BY SENATOR CARPER

    Senator Carper. Thank you, Madam Chairman.
    It is especially good to be able to welcome a former 
governor and colleague, Pete Wilson. Thank you so much for 
joining us. And to our other witnesses, welcome. Nice of you to 
come.
    Hurricane Katrina was in all likelihood the worst natural 
disaster that I have ever witnessed, and that may be true for 
others here today as well. Hundreds, some say thousands, have 
died, a lot of people are homeless as we know, large swaths of 
the States of Alabama, Mississippi, and Louisiana are in ruins, 
and parts of the city of New Orleans today are still under 
water.
    Having said all of that, I have been inspired by the 
outpouring of support and compassion from individuals all over 
the country. At the same time, like many Americans, I have been 
shocked and outraged by at least some aspects of our response 
to the storm.
    During my 8 years as governor, some of which I shared with 
Pete Wilson and others with Governor Voinovich, but during my 8 
years as Governor of Delaware, my State lived through a number 
of weather emergencies, everything from ice storms to blizzards 
to floods to hurricanes. In fact, someone suggested at the end 
of my time as governor, he said, ``Were you the Governor when 
we had the snowstorm of the century?'' I said, ``Yes.'' He 
said, ``Were you the Governor when we had the ice storm of the 
century?'' I said, ``Yes.'' He said, ``Were you the Governor 
when we had the flood of the century?'' I said, ``Yes.'' He 
said, ``Were you the Governor when we had the hurricane of the 
century?'' I said, ``Yes.'' He said, ``Do you know what I 
think?'' I said, ``No.'' He said, ``I think you're bad luck.'' 
[Laughter.]
    Whether I am bad luck or not, we worked through all that 
stuff, and I know we certainly never suffered anything as 
tragic as what they have gone through on the Gulf Coast, but 
whenever we needed help from FEMA on my watch, we got it. They 
came early, and they stayed late. They worked hard. They sent 
real good people, and they were wonderful partners with all of 
us, and our first responders and our Guard and local folks back 
in Delaware. I think it is pretty clear to anyone with access 
to their televisions over the last couple of weeks that that 
kind of response, at least in the days immediately after 
Katrina struck, was not what we saw at the Gulf Coast.
    There has been a lot of talk recently about the blame game. 
I think I just heard Tom Coburn mentioning it, and I am sure 
others did in their statements. I think instead of pointing 
fingers, it is time for our Nation's leaders--and that 
certainly includes us--starting right here with our Committee, 
my colleagues, to start playing what I call the responsibility 
game, the accountability game, and to figure out what we did 
right, what we did wrong, and what we need to do to make sure 
we are better prepared to respond to the next disaster, be it a 
hurricane, be it an earthquake or some kind of terrorist 
attack.
    I think it was Abraham Lincoln who once said the role of 
government is to do for the people what the people cannot 
reasonably do for themselves. Four years after September 11th, 
however, it is clear to me that we still do not have our act 
together when it comes to responding to national emergencies. 
At a time when Americans still live under the threat of a 
terrorist attack, we must do better, and we can. That is why I 
hope this Committee will continue the work we have begun with 
the creation of the Department of Homeland Security and the 
reorganization of our Intelligence Committee by examining and 
addressing the failures at all levels of government that have 
contributed to the disaster in the Gulf Coast region.
    Because we still have people on the ground in the Gulf 
Coast and in emergency shelters across the country in desperate 
need of assistance in the aftermath of Katrina, we need to 
learn more about what needs to be done in the coming days and 
weeks and months, maybe even years, to help those communities 
affected by Katrina to recover as best they can.
    I am pleased that we have before us this panel today, which 
fortunately or unfortunately has a considerable amount of 
experience in recovering from natural disasters, to help us 
guide the way. Again, we thank you. We look forward to your 
testimony.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Chafee.

              OPENING STATEMENT BY SENATOR CHAFEE

    Senator Chafee. Thank you, Senator Collins and Senator 
Lieberman for holding this hearing, and I look forward to the 
testimony of the distinguished panel.
    Governor Wilson, in your testimony you say that California 
emerged from your fires, droughts, landslides, and earthquakes 
stronger than before.
    And, Mayor Owens, you say that Grand Forks has come back 
bigger, better, and stronger than before the April 1997 floods.
    So I am sure that is all our goal, to see the Gulf Coast 
come back stronger than before, and I look forward to your 
testimony.
    Chairman Collins. Thank you. Senator Dayton.

              OPENING STATEMENT BY SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman.
    It has now been over 2 weeks since the levees protecting 
New Orleans from the rains of Hurricane Katrina have failed, 
and almost a week since the Senate Majority Leader announced 
that this Committee would investigate those and other failures.
    Since that time the Federal officials responsible for the 
Administration's actions and inactions to the hurricane have 
been unwilling to appear before us in a public session. They 
pretend they are too busy 24 hours a day, 7 days and nights a 
week to do so. Madam Chairman, obviously, none of us on this 
Committee want to disrupt the disaster relief efforts in 
Louisiana or Mississippi. They are already disrupted enough 
without us. But those Federal officials have enough time to 
appear on the Sunday talk shows, more often than not from here 
in Washington.
    Eight days ago, 10 Federal agency heads, all of them 
Cabinet Secretaries, briefed Senators for over an hour here in 
Washington behind closed doors. There was nothing, nothing that 
they said that could not and should not have been said in a 
public setting.
    Six days ago the heads of operations for FEMA and for the 
Coast Guard briefed Members of this Committee behind closed 
doors.
    Today we finally have our first public hearing on this 
greatest natural calamity ever to inflict our country, and the 
responsible Administration officials--if that is not an 
oxymoron--are still hiding behind closed doors.
    President Bush said yesterday that he wants to know what 
went right and what went wrong. So do we. So do the American 
people. However, as my mother taught me, actions speak louder 
than words. While the Administration professes to want the 
answers to tough questions, they will not face those questions 
in public before us on this Committee.
    While the Republican Senate leadership professes to want 
this Committee to investigate the failures and the successes of 
the Federal response to Hurricane Katrina, they will not permit 
us to do so in public.
    Madam Chairman, I have the utmost respect for you and for 
the Ranking Member, and I know that you have done your utmost 
to begin the public inquiry, which is this Committee's 
responsibility. It is a responsibility that is ours, as Senator 
Voinovich said, under the Senate's organizing resolution, and 
it is not dependent upon the majority leader's beneficence or 
the White House's concurrence.
    I have the utmost respect for today's distinguished panel, 
outstanding public servants who answered this Committee's call 
to share their previous experiences with us. None of them, 
however, hold positions of public responsibility for Hurricane 
Katrina, and none of the people who hold positions of public 
responsibility for Hurricane Katrina are yet willing to appear 
before this Committee, and thus, in public, before the families 
and friends of those who lost their lives, before those who 
lost their homes, their businesses, their jobs, their 
communities, or before the rest of America, who have the right, 
as we have the responsibility on this Committee, to get answers 
about what happened, what did not happen, and why.
    Until those Federal officials who are responsible appear in 
public before this Committee, then anything else here today or 
otherwise, I regret to say, Madam Chairman--but I must say--
anything else is part of the Administration's cover up, and any 
attempt to delay the public investigation of this Committee 
into Hurricane Katrina is an obstruction of justice. Any 
attempt to bypass this Committee by some select subcommittee, 
as being proposed, is unacceptable, and any acquiescence by 
this Committee to their doing so would be unconscionable.
    This is our responsibility. This is our authority. So let 
us get on with it. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Pryor.

               OPENING STATEMENT BY SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman. Let me first 
start by thanking the Chairman and the Ranking Member for their 
leadership on this and a variety of other issues.
    I do hope that this Committee hearing we are having in this 
Committee today is the first of many that we will have on this 
subject. For those of you who may be new to the Committee, out 
in the audience or watching at home perhaps, Senators Collins 
and Lieberman have really led by example. I have been working 
with them for 3 years, and time and time again they have shown 
strong bipartisan leadership. In fact the intelligence rewrite 
that we did last year proves that this Committee can be a very 
non-political venue and that we can do great things in this 
Committee if we are allowed to do so. So it is my belief that 
regardless of outside political pressure, it is this same 
Committee that ought to pursue oversight responsibilities on 
the government's slow rescue and response effort in the 
aftermath of Hurricane Katrina.
    If the Homeland Security and Governmental Affairs Committee 
for some reason is not allowed to do its job, which I believe 
is correct under the Senate Rules, but if we are not allowed to 
do that, I think that the families of the Gulf Coast and the 
rest of the Nation really have a right, and they really deserve 
to get, a thorough review of the mistakes that occurred in a 
setting where politics will not play a role. I believe very 
adamantly that part of this investigation and legislation that 
follows really should begin with looking at the chain of 
command and the bureaucratic breakdowns that we saw in the 
aftermath of Katrina.
    I think a lot of us look at some of the problems and 
sometimes forget to mention some of the bright spots. I think 
there were a lot of bright spots, most notably three that I 
want to mention. One is the Coast Guard. I think the Coast 
Guard was absolutely excellent. By all accounts, everything I 
have heard, they have just been fantastic. Second is the 
National Guard. They really once again came to the rescue. And 
also just everyday citizens of this country have really been 
great. They have been very generous. They have just been 
amazing in how they responded to this.
    But back to Homeland Security and FEMA and other Federal 
agencies. When we set up the Department of Homeland Security, 
we were hoping for a smooth and immediate rescue and recovery 
when major national tragedies happen. That did not occur in the 
aftermath of Hurricane Katrina. I must say I am very concerned 
and very dismayed, given the government's response, and I think 
that our failure to respond adequately in the aftermath of 
Hurricane Katrina really shows a weakness in our emergency 
preparedness, and that weakness is of great concern to me and 
all my Senate colleagues, and also to all Americans.
    So as we go through these hearings, I look forward to--as 
my colleague from Ohio said--getting down in the bowels of 
Homeland Security and FEMA and really doing the nuts and bolts 
oversight work that the Senate should do and this Committee 
should do.
    Madam Chairman and Senator Lieberman, thank you very much 
for your leadership.
    Chairman Collins. Thank you.
    I want to thank our panel for having such patience in 
sitting through more than an hour of opening statements. I 
think it shows how much the Members of this Committee care 
about this important issue.
    Unfortunately, as former Senator Wilson will appreciate, a 
vote has just been called. What I would like to propose to do 
is to briefly introduce this panel, then recess for about 12 
minutes, and then we will resume with your statements 
immediately upon our return from the vote.
    We have a very distinguished panel of witnesses. Governor 
Pete Wilson has devoted more than 30 years to public service. 
During his first term as Governor of California, he was 
confronted with an astonishing array of declared disasters. I 
believe I read 22 declared disasters in your first term, one of 
which was the Northridge Earthquake of 1994, which killed more 
than 50 people, displaced 22,000 people, and leveled numerous 
buildings and critical highways in the region. It also caused 
an estimated $44 billion worth of damage. Following this 
tragedy, Governor Wilson directed State response efforts for 
which he has been lauded. He truly, having gone through all 
those disasters, is one of our Nation's premiere disaster and 
recovery experts.
    Mayor Patricia Owens has served local government in Grand 
Forks, North Dakota, for nearly 30 years. She was mayor when 
one of the worst floods in her region's history engulfed 80 
percent of the city. She oversaw the evacuation of most of her 
50,000 residents.
    I was telling the mayor earlier that I was struck by the 
phrase that she used, and it was a great example of 
communication, when she advised people to bring their pets, 
pills, and pillows, and I think we have seen in New Orleans 
that if that advice had been given to people, we would have had 
a better evacuation. And I appreciate your coming up with that 
communications effort.
    Mayor Owens then oversaw the recovery efforts in Grand 
Forks, including an extensive urban planning effort that led to 
the movement of homes and businesses away from the floodplain 
areas. So we look forward to hearing from you as well.
    Mayor Marc Morial was Mayor of New Orleans from 1994 to 
2002. He is currently President of the National Urban League, 
he has had many years of public service, and he brings to this 
hearing a special understanding and deep concern of the needs 
of Katrina's survivors. We look forward to hearing his advice 
on how we can best help the Gulf Coast recover.
    Iain Logan is the Operations Liaison for the International 
Federation of the Red Cross and Red Crescent Societies. Mr. 
Logan was the Chief Coordinating Officer for the International 
Federation, on the ground for 4 months after the tsunami 
disaster killed an estimated 150,000 people and displaced more 
than a million more. He also played a similar role in 
responding to the devastating earthquake in Iran a year 
earlier. He has also worked in many other international 
disasters, including Hurricane Mitch, which caused such 
suffering in seven Central American countries.
    We are very pleased to have all of you here, and I thank 
you for your patience as we now take a brief recess.
    [Recess.]
    Chairman Collins. The Committee will come to order.
    Governor Wilson, again we welcome you, and we are going to 
start with your testimony. Thank you.

    TESTIMONY OF THE HON. PETE WILSON,\1\ FORMER GOVERNOR, 
                           CALIFORNIA

    Mr. Wilson. Thank you, Senator Collins. Thank you for 
convening this hearing. I thank the Members for attending. In 
the interest of time--you have my prepared statement--let me 
try to highlight some of the things that I think are of 
essential value.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wilson appears in the Appendix on 
page 71.
---------------------------------------------------------------------------
    Before I do, I would make this general statement. As 
daunting as it seems, recovery from Katrina is not just 
possible, it is essential. It is essential to the well being of 
the Nation. New Orleans and the rest of the Gulf are simply too 
important not to take that very strongly into account, and I 
think our job in both the public and the private sector must be 
basically to dispense with business as usual and procedures 
that will delay and impede recovery, and instead, in both the 
public and the private sector, we must devise practical 
incentives to accelerate the return to health of this vital 
region. The good news is that it has been done in other places. 
It can and must be done in response to Katrina.
    Now, specifically, as you pointed out, I had the doubtful 
experience like the rest of this panel, of having more 
experience than we would like to have in this area. You 
mentioned 22 major natural disasters. That is true. I will not 
make the statement about this disaster, Katrina, which I think 
dwarfs all others in American history. I will not make the 
well-intended but perhaps unfortunate statement made by one of 
my predecessors as he was reviewing recessing flood damage in 
Northern California. The former Governor Pat Brown said, ``This 
is the worst disaster since my election.'' [Laughter.]
    I share his concern, but in any case, we had too many to 
choose from. I am going to leave to Mayor Owens the experience 
of dealing with floods. We had floods in California. We had one 
in January 1997 that she recalls. It resulted in eight deaths, 
evacuation of 120,000 people, relocation of 55,000 people to 
over 100 shelters, damage or destruction of 30,000 residences 
and 2,000 businesses. Total damage estimate about $2 billion.
    As serious as that was, it was by no means the worst of the 
things that we faced. The largest, of course, as you pointed 
out, was the Northridge Earthquake, which up until the time of 
Andrew was the costliest disaster in U.S. history.
    Let me point out some of the things that can be done that 
we did do trying to speed recovery. We first of all had 
excellent response from FEMA. We had it in the first Bush 
Administration, and we had it in the Clinton Administration. 
Yes, there are always things that can be done better and 
faster, but the response was really very good, and the 
coordination was excellent, some would say because we had had 
so much practice working together with those 22 natural 
disasters.
    But in the case of the Northridge quake, our first job was 
to make certain that people were safe. And then we went about 
slashing the red tape and trying to set aside rules that 
imposed delays to which there was no real purpose. We had to 
take care of people who had no food, no homes, no jobs, and I 
underscore the ``no jobs'' because that is a very important 
consideration.
    As with so many other disasters faced in my State, and as 
with Katrina, the National Guard was our extraordinary first 
line of response, often supplementing the efforts of people who 
had as their official duty a response. There were over 23,000 
Guard members mobilized to protect public safety, to distribute 
food and water, set up tents as emergency shelters for 
thousands of victims. By the way, in the case of a major quake, 
I think that it is common to find that people are unwilling to 
go into structures because they are afraid of the after shock. 
So we had that experience. The Red Cross, the Salvation Army 
had shelters that were not at capacity, but we used tents for 
people who simply could not bring themselves to go back in.
    We recruited and deployed some 4,200 State workers to help 
out with processing claims of various kinds, working with 
Federal disaster centers that we set up with FEMA. In order to 
cut the long waits, we used these 4,200 State workers, working 
in any number of areas where they could be helpful to recovery, 
outside their agencies and well outside their job descriptions, 
and in fact, we made the FEMA Disaster Assistance Centers into 
a one-stop center for both Federal, and State, and local 
assistance. We had people working side by side. We even had 
insurance agents in there handling claims.
    We were trying to rebuild very quickly, and I do want to 
spend some time on that. Someone mentioned--I think Senator 
Levin--interoperability of communications. Something that you 
may want to look at is the interoperability of equipment. When 
we had the Oakland fire, the terrific coordination and 
cooperation that exists under long-existing mutual assistance 
pacts was frustrated by the fact that when fire departments 
from other parts of the State, other communities, came to help 
Oakland with a fire that consumed some 3,000 homes, they were 
frustrated to discover that their equipment would not fit the 
hydrants in Oakland.
    When we were trying to cut red tape, we did it in a variety 
of ways. I should tell you the key to all of this was the 
existence in the State Government Code of Emergency Powers, 
explicit powers and explicit authority conferred upon the 
governor in time of emergency, to suspend the operation, not 
only of regulation, but statute, and I did that with alacrity.
    We suspended several trucking rules, some of which 
prohibited nighttime deliveries of food products. We suspended 
overtime rules for those employers whose workers were having a 
terrible time getting to work with the bridges down on I-10 
because they needed to have flexibility of schedule to come 
during normal and abnormal times.
    We had my Secretary of Health and Welfare armed with the 
ability to go to hospitals and to other structures that we 
needed to convert to hospitals on a temporary basis, with 
whatever waivers were required for that purpose.
    We waived fees to speed the reinstallation of mobile homes. 
We expedited the permitting of reconstruction by waiving many 
of the procedural requirements and put staff from State and 
local permitting agencies into a single location.
    We waived the waiting period for unemployment benefits to 
get aid to those who needed it immediately.
    We eliminated all the paperwork requirements for getting a 
portable classroom and thereby made 230 units available through 
a simple phone call from districts in need.
    We issued, I think importantly, bridge loans and loan 
guarantees from State resources to help small business owners 
get back on their feet until the Federal assistance, which took 
a time, could arrive.
    So in these and many other areas we dealt with a situation 
that it deserved. We decided that there was just no time for 
business as usual. Most notable, I think, was the fact that 
when we were seeking to repair the freeway bridges, the 
overpasses on I-10 that had been reduced to rubble in a matter 
of seconds, we said to those contractors bidding on the repair 
work: ``We want to know not only when you will finish the job 
and how much, but we want you to agree that you will submit to 
one more condition, and the condition is very simply that for 
every day that you are late in terms of your promised date of 
completion, you will incur a penalty of $200,000 per day. For 
every day that you are early, you will earn a bonus of $200,000 
per day.''
    The winning bidder I think made more on the bonus than on 
the bid. We had been told initially that it would require 2 
years and 2 months to restore those bridges, an intolerable 
situation for an artery that was central, the busiest freeway 
in the world and central to the functioning of our economy. It 
did not take 2 years and 2 months. It took 66 days.
    The other thing that I would urge the Committee to look at 
with specific regard to New Orleans and the levees, I am told--
and I am not an engineer--that there is an engineering solution 
even in that alluvial soil without bedrock. It is very 
expensive. It seems inevitable to me that we are going to have 
to do as public agencies what we have done in the past in other 
parts of the country to deal with flood damage, but in this 
instance, it seems to me that the private sector, who may very 
well benefit from the rebuilding of New Orleans, has an 
opportunity, and what we ought to do is say, ``We will share 
the burden and use something that many Members of this 
Committee are familiar with--there are former mayors and 
governors sitting there, most of whom are familiar with tax 
increment financing, the use of bonds for land assembly to 
redevelop blighted areas.'' I do not think anyone can argue 
about the blight in New Orleans.
    What I think we ought to do is extend that mechanism to 
include not just land assembly in the ruined sections of the 
city that will need to be rebuilt, but that we ought to include 
fronting the costs, the expensive costs of constructing these 
new super levees by the use of that kind of tax increment bond, 
because as we rebuild in New Orleans, as new properties are 
added, it adds dramatically to the tax base, it builds that tax 
increment, and over time will create the fund that is required 
to redeem those bonds. It is a very simple, and I think 
ingenious, idea that someone had for redevelopment of blighted 
areas many years ago. It is a proven technique. We should 
simply permit the funding to go to the construction of the 
levees and whatever else is necessary to secure the investment 
that otherwise I do not think will come.
    If we are going to give potential investors the confidence 
to invest and to rebuild New Orleans, then it begins with their 
having confidence that the next time a Category 4 storm 
approaches, that the levees will not go down.
    There are other things that I could say. Let me conclude 
simply by saying this--I see I am over my time--again, I 
emphasize economic development as an essential requirement and 
something that has to have the earliest possible attention. 
That is what was behind our rebuilding of the I-10, not just 
driver convenience. It was costing $600,000 per day, by 
conservative estimate, in economic dislocation.
    The Mayor of Los Angeles made it his priority. Dick Riordan 
was bent upon bringing jobs to his community and rebuilding 
confidence. That kind of can-do attitude, I think, is essential 
as well as the bipartisan or nonpartisan cooperation between 
all levels of government, and a sharing of the responsibility 
between the public and the private sectors.
    Thank you.
    Chairman Collins. Thank you very much, governor, for your 
excellent testimony. I know all of us are going to have 
questions to follow up on it.
    Mayor Owens.

TESTIMONY OF THE HON. PATRICIA A. OWENS,\1\ FORMER MAYOR, GRAND 
                      FORKS, NORTH DAKOTA

    Ms. Owens. Madam Chairman, Ranking Member Lieberman, and 
Members of the Committee, I feel honored that you would ask me 
to be here today to testify on how we recovered and how I feel 
that we, as a Nation, can help the Gulf Coast with their 
comeback.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Owens with attachments appears in 
the Appendix on page 77.
---------------------------------------------------------------------------
    Grand Forks, North Dakota, in 1997, experienced eight of 
the worst snowstorms it ever had. It was almost 100 inches of 
snow over about a 5-month period, and we were very well 
prepared for a 49-foot flood. By the time April 1 came, we were 
all exhausted from battling keeping the roads open and keeping 
the cities going and so forth, so we were pretty run down. 
April 1 we had a huge ice storm that stifled the whole State, 
and the next day we had a 14-inch snowfall. By Monday it was 
thawing and the ice jams were forming.
    We were in emergency mode, and that Wednesday I had a 
meeting with some of the people that were in the lower areas of 
the city. About 2,000 people appeared, and I had to stand up 
and say, ``You need to evacuate because we do not know what is 
coming.'' The Weather Service had said 49 feet. They had no 
other way of knowing because it was coming so fast.
    By that Friday I was called back to the emergency center to 
evacuate the city. I had gone home for just a couple hours to 
get some rest. I remember as a political figure what you think 
is--(I had worked for the city for 33 years for four mayors 
before I ran for mayor)--my goodness, they are looking at me 
here, and I am going to have to evacuate 50,000 people. I mean 
I knew every nook and cranny of that city, but this was just 
surreal. So I turned around and I saw the Coast Guard there, 
and I thought, yes, Grand Forks is flat. I know this is 
serious. [Laughter.]
    So my mind went from one thing to another, and I know 
elected people go through this because it is so unreal. And 
they said, ``We have people on the levees and they are starting 
to breach.'' My first comment was, ``Get them off of there and 
get these people evacuated.''
    We started evacuating in the middle of the night. We sent 
people through the neighborhoods. The Coast Guard was there, 
the National Guard, our police and fire departments with 
bullhorns. We had our civil defense sirens, which was really a 
plus in an emergency for people to take note.
    We got all 50,000 of those people out of the city prior to 
the waters inundating about 90 percent of our city. We even had 
to move our emergency center.
    I think one of the main things was we had the FEMA people 
in about 2 weeks before with the representatives from Minnesota 
and North Dakota, and led a delegation to show them what we had 
done and what we figured was going to happen.
    Across the river was a city of about 9,000 people, too, and 
the bridges were out. I did talk to the Mayor of Winnipeg, 
Manitoba, Canada, and we decided our main goal was to tell them 
to take their pets, their pills, and their pillows because we 
knew they were going to be gone for a while. My first goal was 
to take care of the people first, and I said, ``We are going to 
save all lives at all costs.'' I got on TV as a front line 
figure because I think they trusted me since I had worked for 
government so long. I needed to encourage people. The majority 
of them left.
    We had to find a strategy to recover. We were out at the 
University of North Dakota. We had a huge group of people, 
thousands of people in a hangar at the Grand Forks Air Force 
Base, so we had to figure some strategy to keep in touch with 
these people. I stayed on TV constantly so they would be 
updated. I think the two critical elements present during a 
response is establishing and maintaining emergency disaster 
information for the public, and also as you are recovering. It 
is never enough. I mean no matter how much we did, you still 
get critical comments. It is because people are so busy they 
just cannot watch everything or they do not have the 
communication. And then the interactive communication among the 
city, county, State, and Federal agencies is so important.
    One of the things we decided to do is build for the future 
and do it better. As long as we were investing the money, we 
were going to do what was right for years to come, not just put 
what we had in place.
    One of the best things we had was nonpartisanship. We had 
our congressional delegation. The two Senators and our 
Congressmen were wonderful. They were right beside me. I mean I 
followed them and they followed me. Our governor was there 
also. The governor was Republican. Our people in Washington 
were Democrats. They worked as a team, and they worked with us. 
I still believe in emergencies you can have a plan, but that 
plan is not going to always address everything. We updated ours 
all the time because we had floods. That plan will never be 
something that you can follow to the top degree; however, it 
will assist you.
    I think there is not a plan or a book written that is going 
to take people through a disaster like the Gulf Coast went 
through. I mean it is just tragic. I think the one thing that 
they had there with the first responders was dealing with the 
human part of the disaster, with the looting and the shootings 
and the things that were going on that endangered the lives of 
the people in their city, but also the first responders. It is 
very difficult to go into a city when that is happening.
    I believe the less finger pointing that is done and the 
more we move ahead, the quicker those people are going to 
recover. We had places, too, that were not right, and mistakes 
were made, but we just moved on. I made it a point that we just 
would try to do it better and just move on and keep going.
    I think one of the things that I did that worked really 
well was I put together a group of technical people to help--
because I did not have all the technical abilities, even having 
worked for the city for so many years. I put a group of people 
together of my top department heads. It was my Director of 
Public Works, who would deal with the infrastructure and 
getting it back online, and then also our future flood 
protection, which I think is something you need to do right 
away or people will not come back to the city. The businesses 
will not want to come; the people will not want to come back. 
You have to address that early on.
    So we did address that and we did get a $350 million levee 
system in Grand Forks.
    The next thing I did was put the next community development 
director in place. We were fighting in Washington for a $500 
million disaster aid bill, and we worked very hard with our 
Senators and Congressmen to get that. It finally went through, 
and we were allotted $171 million of that to kind of jump start 
recovery in our city.
    We needed accountability on that money. I put my city 
auditor in place for accountability on all the monies. That is 
one of the things where they will hit brick walls. Every bit of 
money you get, you have to have accountability, and there is 
always conflict over how it is distributed and what you do with 
it.
    Grand Forks recovered well, but we recovered well because 
everyone worked together. I think government with a city starts 
right at the local level and goes up to State and Federal, and 
we were a team. We worked together from the very beginning. We 
had a one-stop shop again. Our City Hall was gone, so we were 
even in that one-stop shop where they had the FEMA 
Headquarters. All the agencies were there. We met daily for 
3\1/2\ years in the mornings, and at the beginning it was all 
the emergency response people. We met maybe two times a day so 
we could touch base to see where the critical needs were, and 
critical needs, of course, were getting people back into some 
type of housing. We did build 200 homes, congressional homes, 
with monies that we got from HUD, and sold them with incentive 
so people would locate back in an area that was dry.
    We had to move back from the river quite a ways, so we had 
the buy-out program. I am sure the buy-out program is going to 
cause a lot of conflict also. That is a difficult thing to do. 
There are those who will do it voluntarily, and there are those 
who will not want to do it.
    I guess you learn one thing when you are an elected 
official during a disaster, I do not think anybody can imagine 
what the people go through. We are there suffering with them, 
but I do not think anybody can imagine what the elected people 
also are going through. It is exhausting. It is a daily--I mean 
you have no rest for the whole time that you are working during 
your term. It is just totally exhausting. You are inundated, 
and you have to be very strong to get through it because you 
will take criticism.
    But like I said, the first thing was we took care of the 
people. We got housing. We got trailers in there. We addressed 
the jobs. I appointed a group of citizen people and broke them 
off into about 13 different areas. Local bankers worked with 
some of the citizens to get the jobs online. We had money and 
checks coming in in my name, so we had to form some type of 
bank set aside--I believe we did it through the Bank of North 
Dakota--and have a small group to monitor so people could 
submit applications. What we did with that money mostly was 
start a day care because once you were getting your jobs up, 
you had no day cares.
    Another thing that I think when you have a disaster, the 
first thing I did was close all the bars. We had a dry town. 
[Laughter.]
    The psychological effects are horrible because people are 
tired, they are exhausted, they turn to alcohol and drugs. 
There is more abuse. There are suicides. That is a huge issue 
that has to be addressed. The children need help, too, with 
that type of thing.
    I could talk for hours on what we went through and the good 
things that we could do. I am an employee of FEMA, by the way. 
I was hired on by FEMA as an Ambassador of Hope and a 
consultant with Region 8 after my term was ended. I did go 
several times with FEMA to the disaster areas when I was mayor. 
Congresswoman Eva Clayton had invited me to North Carolina, so 
I went there, and joined in a rally, and went to Rocky Mount, 
Princeville, and Greenville, and did what my job was, to 
inspire people and give them hope. That is what I tried to do 
in my city because I did have my technical people to work. Our 
people in Washington were wonderful. I lobbied for months. I 
felt like I lived here most of the time. They were wonderful. 
We just had to present our story, and we did get the help we 
needed as the monies were available.
    Examples of what happens to people, elected people, I mean 
most of the time you are voted out of office, which I was, too. 
I had won by 77 percent of the vote. I lost by 300 votes. Most 
of the time this happens to elected people, and James Lee Witt 
had warned me of this. There was a North Carolina Mayor, after 
I gave a talk in North Carolina, who came up to me, and he had 
tears running down his face. What I do best is inspire people. 
I inspire them so that they can do it. There is nothing that 
you cannot accomplish if you work together and just keep going 
and have faith in God, too, and faith in yourself and the 
people around you. That is what I kept saying, keep the faith.
    But this mayor came up to me, and he said, ``You know, 
Mayor, I lost my election, too,'' and I said, ``What was the 
reason for yours?'' He said, ``You know, after flooding of 
Grand Forks and East Grand Forks, Minnesota, I sent a truckload 
of goods, and that is what they used against me, was my 
inability to help here, but I sent goods to a community that 
was hurting.'' I told him, ``You know what, you will have a 
special place there, and you did your job.'' I said, ``That is 
remarkable. You just keep your head high. You did what was 
needed at the time.'' And I said, ``That is the only way you 
can be a good politician.''
    So personal strain. You have to be strong to do the 
regulations that need to be done. We put regulations aside for 
building also so that people could come forth. We had to deal 
with the gouging, contractors coming in that were not 
legitimate. You need a City Attorney who does not budge. You 
need a strong City Attorney working with the Attorney General. 
They have to be the top-notch person--and that man was by my 
side.
    I do have to say, about 3 days after it started, I knew he 
would be one of my top people, and we disagreed on something. 
So I very politely just leaned over the desk and took him by 
the tie--and I am small---- [Laughter.]
    And said, ``We have to work together for 3\1/2\ years to 
get this going.'' I do not think we ever had another word after 
that. [Laughter.]
    Anyhow, I think one of the things that the Gulf Coast has, 
it has wonderful people working in a nonpartisan manner, and 
there is nothing more enlightening to me as a person who lives 
in the United States than to see people come together to help 
the people who are hurting. I personally know from experience, 
I have the greatest confidence that this group is going to work 
to bring New Orleans back, and it will be bigger, better, and 
stronger. And the people there need to know that, too. We 
cannot point fingers. We need to move on. We can do things 
better. We can go back and see the challenges that they had in 
getting people out.
    I have also had the experience of two of the hurricanes in 
Florida because I am retired and living in Florida now. I know 
what just the tail end of it can do, and I think of what 
happened there. So I have had flooding. I have been involved--
in fact, FEMA called me to go to work the hurricanes again. 
Well, I cannot because of health reasons. They called me last 
year, and before I had my suitcase packed, I could not even go 
because the next hurricane was there. So I was struggling with 
my own family to keep things upright.
    Again, I just say, all you have to do is keep the faith. 
You can do it. And bad things happen, and we do not know for 
what reason. We had a bad flood. They had a catastrophic event, 
and we all need to be there for them as everybody was there for 
us.
    Chairman Collins. Thank you very much. Thank you for your 
excellent testimony.
    Mayor Morial, we are pleased to have you here, too.

  TESTIMONY OF THE HON. MARC H. MORIAL,\1\ PRESIDENT AND CEO, 
     NATIONAL URBAN LEAGUE, AND FORMER MAYOR OF NEW ORLEANS

    Mr. Morial. Thank you very much. Madam Chairman, Senator 
Lieberman, and Members of the Committee, I want to thank all of 
you for giving us a chance to come down here and talk to you 
today. I am here as the President of the National Urban League, 
but also, very importantly, as the former Mayor of New Orleans, 
and one who loves New Orleans, its people, its culture, its 
history, and its very essence.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Morial appears in the Appendix on 
page 104.
---------------------------------------------------------------------------
    So I come here shocked and angry, and this is how I have 
felt over the last several weeks, hurt, betrayed, befuddled, 
and bewildered. But I come today to say now is the time for 
competence and compassion. And the Nation, the voluntary 
agencies, the people of this Nation have expressed a great deal 
of compassion and generosity for the people who are victims and 
survivors of Katrina, who are from New Orleans and all over; I 
want to remind everyone, Southeastern Louisiana, Southern 
Mississippi, parts of Southern Alabama.
    I come today to also say that I agree that it is not the 
time for gamesmanship, salesmanship, or brinkmanship, but it is 
time to thoughtfully, as this Committee in all of its opening 
statements has suggested, plan about what the best next steps 
are.
    So I want to lay out for you some of my thinking about next 
steps under the umbrella of what I call the ``Katrina Victims 
Bill of Rights,'' because in all of this, in this tragedy, the 
most important thing is that we have one million displaced 
Americans, internally displaced Americans. They are not 
refugees. They are our own citizens. They are our neighbors. 
They are our voters. They are your constituents. They are, if 
you will, they are black, they are white, they are hispanic, 
they are Asian, they are rich, they are middle class, they are 
working class, and they are poor. And while the poorest of poor 
suffered the most and their candid images are what we saw, 
Katrina was an equal opportunity destroyer that affected the 
lives, in a dramatic way, of so many Americans.
    I believe as we think about this we should look at how this 
Nation responded, how this Congress responded, how the 
President responded in the aftermath of September 11, as the 
standard, the gold standard, if you will, to help guide our 
thinking and our discussion. This is why I believe that this 
Congress should create a victims compensation fund.
    In the aftermath of September 11, within 2 weeks after that 
tragic event, the Congress created a victims compensation fund, 
which in the end paid out some $7 billion to many thousands of 
victims, those who were survivors of those who were killed, 
those who were injured, and those who suffered economic losses. 
The compensation fund functioned in an orderly and appropriate 
way and gave due respect to the fact that people's lives were 
significantly disrupted by that tragedy.
    Second, I believe that in this, as I visited Houston, and 
as I fielded calls from all over the country, as our affiliate 
offices have received scores of people coming and looking for 
help, people have been dislodged from their jobs. They have 
been dislodged from their businesses. They have been dislodged 
from their bank accounts. They have been dislodged from the 
social structures and clubs and organizations that are a part 
of their quality of life. But most importantly, they have been 
dislodged from their jobs.
    So I believe that Congress must look very carefully at an 
appropriate way to provide unemployment assistance to every 
worker for an appropriate extended period because if not, it 
will be in Houston and Dallas, in Austin, in Little Rock, in 
Memphis, in Washington, in Boston, in all of the communities 
where displaced Americans have gone that will have to bear the 
burden of people in those communities with no money, with no 
job, with no house, with nowhere to go. It will be local and 
State Government that will have to bear that very significant 
burden. So Congress, as it thinks going forward, I would urge 
should think about an appropriate way to give unemployment 
assistance and assistance to people in connecting to new jobs, 
assistance to people in connecting with both temporary and 
permanent housing.
    The hard, painful reality is that no one can say with any 
degree of accuracy when it is that people will be able to 
return to New Orleans or to St. Bernard Parish, or Plaquemins 
Parish, or Slidell, or Gulfport, Biloxi, Waveland, or Bay St. 
Louis. No one can say with any accuracy. Our leaders should not 
hold out false hope until the rescue and recovery efforts have 
had an opportunity to quickly, I hope, move forward.
    Third, the displaced citizens who are now in all of these 
communities, displaced by Hurricane Katrina, must continue to 
have full voting rights in their States. This is not meant to 
politicize the discussion, but meant to say that they must have 
a voice in the rebuilding of the communities from which they 
have been displaced. In this regard, the idea of one million 
displaced Americans, we are in uncharted territory at least 
certainly in the last 100 years. But this is an area that I 
hope Congress will give some attention to.
    When it comes to the rebuilding, certainly the Federal 
Government must commit to a Gulf-wide rebuilding effort that 
meaningfully includes the residents of the Gulf Coast region, 
but also challenges us to put together an unprecedented and 
comprehensive public/private Federal, State, and local 
coalition to orchestrate, to design, to plan this rebuilding. 
If not, partisanship, regional conflict, class, and racial 
conflict will dominate this rebuilding process. As various 
people begin to articulate their singular vision for the 
rebuilding, there must be a collective vision. New Orleans is 
not a gated community. New Orleans' essence is as a diverse 
multi-cultural, a place that has given the world and the Nation 
great music and food and great people.
    So I believe that Gulf-wide rebuilding effort is going to 
require the hands-on involvement of many, but require a broad 
coalition, a broad partnership to think about all of the 
suggestions that have been made about red tape and tax 
increment financing and all of these very important ideas, but 
this is unprecedented. We have never had to rebuild an entire 
city or an entire region.
    Also I would add--Senator Domenici suggested this, and 
there have been some other suggestions. The rebuilding has to 
be a building for the future that respects the history. Somehow 
in this perhaps there needs to be a czar, a super secretary, a 
coordinator, some person with direct access to the President, 
who has credibility with all of you and the public at large, a 
single point where the buck will stop, to coordinate the 
rebuilding of the lives of the people and also the rebuilding 
of the Gulf Coast Region.
    Finally, I would suggest this. I think, yes, it is 
certainly appropriate that Congress conducts its own 
investigation of what happened because that is your job and 
that is your responsibility. But I do think that the September 
11 experience demonstrated that there is a role for an 
independent commission. This issue of disaster preparedness and 
disaster response, I think as all of us up here learned or 
know, is tough, sophisticated science, tough and sophisticated 
science, and the best minds and experts need to be utilized in 
looking at what went right, what went wrong, and how to improve 
it fast, quick, and in a hurry. I suggest that due 
consideration be given to some sort of independent September 11 
style commission to work in conjunction with the appropriate 
investigatory activities of this Committee, the House, and the 
Congress.
    Finally, FEMA has come under great fire. I had an 
opportunity when I was mayor to work with James Lee Whitt, and 
the relationship and the experience were positive. It seems to 
me at the very least that one of the things that Congress can 
do is look at writing into the FEMA authorizing statute the 
minimum qualifications for the Director and the top-level 
officials.
    Disaster preparedness is a science, it is a profession, it 
is professional. It is not something that simply because 
someone is smart, a good manager, a good communicator can do. 
It requires experience, it requires training, and the top 
Federal official ought to at least meet some minimum standards 
with respect to disaster preparedness and response.
    As I close I want to say that I had the opportunity to 
visit Houston, the Astrodome, the George Brown Convention 
Center, and the Reliant Arena with former Presidents Clinton 
and Bush, with the governor, with the mayor, with the county 
executive down in Texas. What Houston has done is remarkable. 
The generosity, the arms, the attitude, the cooperation, is a 
model for the Nation. It is uncomfortable for people to live on 
a cot, sharing a bedroom with 10,000 people, but Houston has 
done an excellent job. I think it bears a look by all 
communities in this Nation because what they simply did when 
the need was there was to pull the trigger on their own 
emergency response plan. I think their generosity reflects the 
attitude and the spirit of so many Americans, and I thank them 
for that.
    And my final word is, what is needed is for this Committee 
and for the Congress to be an advocate for the survivors and 
the victims. That is what is needed. I fear that when this 
story drifts from being a lead story on the evening news, from 
the front page of the national press, that the people are going 
to be forgotten. This situation needs public advocacy. It needs 
the Congress of the United States to be victims. What happened 
to New Orleans and the Gulf Coast could happen to San 
Francisco. It could happen to Miami or Charleston or coastal 
North Carolina. It could happen to Houston. It could happen to 
San Diego or Los Angeles. And as I grew up in New Orleans, and 
as I served as mayor, people said, ``This is what will happen 
when the big one comes.''
    One of the reasons why many people may not have evacuated 
is there were those who could not, and there were those who 
said that Chicken Little is saying the sky is going to fall in 
one more time, and I have heard this for so long. This 
unprecedented event, this epic biblical event that has 
displaced so many of our citizens and shocked our conscience 
could happen to another community again. Thank you.
    Chairman Collins. Thank you, mayor, for your very 
thoughtful testimony.
    Mr. Logan, thank you for being here.

      TESTIMONY OF IAIN B. LOGAN,\1\ OPERATIONS LIAISON, 
    INTERNATIONAL FEDERATION OF RED CROSS AND RED CRESCENT 
                           SOCIETIES

    Mr. Logan. Madam Chairman, Senator Lieberman, I have some 
testimony that I would like to ask to be included in the 
document of record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Logan appears in the Appendix on 
page 108.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Mr. Logan. I will make a short statement and then highlight 
a few points in my testimony that would perhaps stimulate some 
questions.
    The International Federation of the Red Cross and Red 
Crescent Societies, first of all, would like to thank the 
Committee for the opportunity to give testimony at this 
hearing. More importantly, on behalf of the President and the 
Secretary General of our institution, we would like to convey 
on behalf of the 181 Red Cross/Red Crescent Societies around 
the world our condolences and our thoughts for the people of 
the United States, but more specifically, for those that are 
affected in the South.
    The Red Cross and the Red Crescent movement represents a 
collective humanitarian force. It is dedicated to assisting 
people in the recovery of those impacted by both natural and 
manmade disasters by mobilizing the power of humanity, which is 
our mission statement.
    Unfortunately, we are only too familiar with the scenes 
that we have seen in the last few weeks. The Indian Ocean 
tsunami, the earthquakes in Bam and Gujarat, Hurricane Ivan, so 
many more.
    Although members of the Red Cross and Red Crescent movement 
share a common mission, the nature of each disaster can vary 
depending on the economic situation of the government and the 
agencies that are responding, the overarching needs of the 
public and the capacity of the national society of that 
country. In the United States, my colleagues behind me from the 
American Red Cross focused their disaster relief on meeting 
people's immediate and emergency disaster needs. And today the 
American Red Cross faces the largest relief operation in its 
history, and it is both an honor, and indeed a duty, that 156 
Red Cross people from 80 national societies around the world, 
including myself, have been asked by the American Red Cross to 
support them in that enormous task.
    But as the waters of the flood recede, there is a need to 
rebuild lives, property, and above all, hope. It is with that 
challenge in mind that we would like to share with you some of 
the experiences that we have had from an international context 
because as I have been listening to my colleagues here, it is 
very clear that there are some overarching issues which 
transcend boundaries.
    Humanitarian actors may be greater in number, the economies 
in which they work stronger, but the principles of a 
sustainable recovery remain the same wherever it is. What is 
next? That is the question that you are asking yourselves right 
now. There is a feeling amongst the public, amongst some 
governments that a disaster is an event. It is on the TV. For 
those of us that work in this business, it is not an event, it 
is a part of a continuum, and the ability to be able to deal 
with a disaster has got to do with awareness of the full 
continuum, the preparation, the mitigation, the response, the 
planning that goes afterward because sure as this one came, 
there will be another.
    So recovery for us around the world starts during the 
response. We learned during the tsunami that within weeks of 
the response we had to start to evaluate what were going to be 
the recovery strategies from some 11 different countries with 
very different types of economies and populations.
    For the Red Cross movement, a major part of that recovery 
is based on the fact that we are a volunteer organization. 
Those volunteers that you see for the American Red Cross and 
other agencies are critical, not only in the response phase, 
but in the recovery for many months later on. It will require 
the participation of many different kinds of actors, and it 
really does not matter. My observation is that whether you are 
a farmer in Ethiopia following a drought, a fisherman in Sri 
Lanka, a waiter in New Orleans, or a doctor in Iran, the most 
critical thing is that people need to get up and feel that 
there is hope. They have to go back to their livelihoods. They 
have to start working.
    It never ceases to amaze me that following the most 
disastrous of events, the spirit of the human being to stand up 
and start to do something. You see it daily. Equally well, 
there will always be those who are paralyzed with shock, and 
your recovery has to take account to mobilize the strength of 
those who have the resilience, and to be ready to support those 
who are so traumatized that they need additional help.
    There also is spontaneous recovery. From the very beginning 
there will be organizations, institutions, individual towns and 
villages who will automatically start to take care of 
themselves. This cannot be held back. It needs to be built into 
the planning. People wish to take charge of their own lives.
    Recovery has to be inclusive. I have recently moved to New 
York City, and I am amazed, listening to the debate on the 
reconstruction of the World Trade Center. It could be 
absolutely duplicated from some of the comments that I heard in 
the city of Bam, Iran, in terms of the citizens there at the 
2,500-year-old world heritage site, who demanded, in spite of 
the fact that their government is very different from here, 
that they be a part of how that city would be rebuilt. At that 
moment in time those people are exactly the same.
    Recovery must be sustainable. The community in which we 
work very dramatically, it is absolutely unacceptable that 
following a huge disaster such as the tsunami that we would 
stand back and allow a recovery that would not improve the 
lives of the people who are affected, that in fact, you 
reinforce the very risks that they were facing.
    There is enormous pressure at this moment in time to do 
something and do something quick, and very clearly you have to 
start to do something. In a disaster decisions may be flawed. 
You can fix them. No decision and inertia is the worst thing 
that can happen. At the same time you have to think about the 
planning. In the tsunami there is some criticism that we are 
not doing enough, we are not doing it quick enough. But in Sri 
Lanka and in Indonesia and in the Maldives, they recognize that 
there is an opportunity to build back better, and that requires 
greater thought. Greater thought may take more time, but in the 
long run, that extra time may be valuable. How do you balance 
those two needs, to move but to think?
    Very clearly we have examples around the world, in Turkey, 
in Gujarat, that many of the casualties may well have been as a 
result of standards, building construction that had not been 
monitored. Yet again, the person that I remember talking to in 
Papua, New Guinea, had no desire to be provided with a modern 
house. They wanted a home that was traditional for them, and 
our challenge was how do you build a better home of that kind? 
I have seen people who have relocated from New Orleans who have 
ended up in Alaska. Some of them will stay. This will be a huge 
new opportunity for them. But since I am a Canadian, when 
winter comes, they may wish to go back to New Orleans. 
[Laughter.]
    Some of them would rather go back, as we found in 
Venezuela, when they were offered opportunities of going to new 
farms up the Orinoco Valley, that they would rather come back 
and live on the very dangerous slopes that they had left just 
before. How do you plan to meet both those eventualities?
    Finally, a few words on coordination. It is a culture. It 
is not something that you talk about today and forget about 
tomorrow. It must be built into not only your responding 
authorities, but to the very communities themselves. The 
International Red Cross, for example, every year since Mitch, 
which was not our greatest moment, we run a workshop in which 
our American Red Cross, the British Red Cross, USAD/OFDA, the 
United Nations, the European Union, all come together every 
year to remind ourselves what are we actually doing there? We 
track these hurricanes. Hurricanes, we know they are coming. We 
do not know what directions they may go. We do not know what 
force they will end up. But we can predict with great accuracy 
the number of hurricanes we will have every year in the 
Caribbean. It will be humanitarian malpractice not to take that 
into account and to make plans that build up a culture of 
preparedness and awareness.
    Finally, relocating displaced populations, a very sensitive 
task in which the voice of the people must be listened to. 
Forced resettlement is not acceptable in any country anywhere 
in the world.
    Finally a few comments from our special representative who 
is now working with former President Clinton, who is doing 
exactly the same thing in terms of recovery. Whether Katrina 
was the United States' tsunami is debatable. What is true for 
both and is in most disasters, the endless grief of those who 
lost loved ones, the courage of the rescue and relief workers, 
and the selfless generosity of strangers who opened their doors 
and gave of themselves.
    All those devastated, be they Iraqi, Indonesian, American, 
have the same need for dignity, community, privacy, and above 
all, the belief that a better life awaits them and that you 
will be with them in the long term.
    When I left Bandar Aceh after the tsunami, a young 
Indonesian teacher said to me, ``Don't say goodbye. If we 
thought you weren't coming back, we could never let you go.'' 
And it was only afterwards when I realized that she was quoting 
Winnie the Pooh. We live in a small world.
    Thank you.
    Chairman Collins. Thank you, Mr. Logan, for your 
exceptionally moving testimony.
    I would like to start by asking each of you a general 
question. Now that the initial rescue stage is largely 
complete, we face an enormous task. We have some 90,000 square 
miles that were affected by this hurricane. We have 450,000 
families that are going to be in need of long-term shelter. We 
have considerable unemployment, businesses that are shut down. 
We obviously have an overwhelming number of needs that we need 
to meet. If you were giving advice to the emergency management 
officials, whether it is Federal, State, or local level, what 
should be the top priority right now? What would it be? What 
should we be doing right now?
    We will start with Governor Wilson.
    Mr. Wilson. Senator, I think that an interesting focal 
point would be the comment that several members of the panel 
have picked up on made by Senator Domenici, where he said that 
it is necessary to have one person who is given the 
responsibility and the authority to make decisions when we are 
talking about recovery and the urgency of that need. That, I 
think, is at the Federal level and at the State level, the most 
important thing.
    If I could leave the Committee with one abiding thought, it 
is one that relates to Federal responsibility, but really to 
the State responsibility that I had, and I do not know whether 
Governor Blanco, Governor Barbour, or Governor Riley have the 
same authority that I had that was conferred upon me and other 
California governors by the State Government Code. If not, they 
should not hesitate for a moment to demand it from their 
legislatures. If they do not have it, they should convene a 
special session of the legislature to get it.
    But they really need the authority to do the kinds of 
things that we have been discussing this morning, to grant the 
waivers, which in the normal course of business may make great 
good sense as safeguards of one kind of another, but which in 
the urgency of recovery requires someone who is invested with 
authority commensurate with his or her good common sense to get 
rid of requirements that simply waste time, and time, as you 
heard from all the panelists, is of the essence.
    When you are talking about rebuilding infrastructure, when 
you are talking about rebuilding an economy, there has to be 
the kind of authority that allows you to do what I was able to 
do. Those governors should have it. Someone at the Federal 
level should have it. And as was pointed out, when you are 
talking about Federal agencies, you are talking about a 
multiplicity of agencies, each with different enabling 
legislation, each with different regulatory requirements 
derivative from their enabling legislation.
    This Committee would do well, I think, to make it its 
responsibility to look at all of those different agencies, all 
of those different enabling acts and regulations, and give 
someone the authority to waive them in time of crisis, which is 
what you are facing after--not only after Katrina, but after 
every major natural disaster. I think Mr. Logan's comment was 
poignant and prophetic, tragically, that we know that there is 
going to be a next one.
    Chairman Collins. Thank you. Mayor Owens.
    Ms. Owens. I agree 100 percent with Mr. Wilson that there 
needs to be one point in whatever you do so that it does not 
tie it up because they need to be able to move through. They 
cannot be tied up in the politics or the rhetoric of what is 
happening.
    Another thing that I know that they are going to be faced 
with, from experience, is they are going to have to clean up 
that area. We had so many deaths and so many people who had 
illnesses afterward from respiratory diseases, every kind you 
could imagine. Before people move back in there, they really 
need to make sure that they have that clean so that they do 
not--they can avoid other possibilities of people dying from 
the after effects of the disaster--because it is contaminated. 
That was serious in our city.
    Thank you.
    Chairman Collins. Thank you. Mayor Morial.
    Mr. Morial. I will echo the idea of a czar or a 
coordinator, but I want to really emphasize, in terms of next 
most immediate steps, is to focus on the displaced people. If 
the energy becomes, ``Let us orchestrate the rebuilding,'' 
which could in fact take time, then the unemployment, social, 
educational problems, sense of alienation and abandonment of 
people who are displaced will in fact be accelerated and 
exacerbated. That means--and I would say that the disaster 
response system that has been typical in the United States, 
that I am familiar with, contemplates that people would be 
displaced for a limited period of time, be able to go back to 
their homes, or if there was any permanent displacement or 
long-term displacement, it would be a few people or small 
number.
    Here we have a large number of people. So are the systems 
in place? Are the resources in place? Is the coordination in 
place for those displaced citizens? That would be the No. 1 
priority.
    Second, with respect to the rebuilding, there needs to be, 
either placed under a czar, a commission of prominent citizens, 
a task force, a group, the ability to be able to get the 
alignment correct, as the mayor said, to clean up and deal with 
environmental and health hazards first before the town is 
opened.
    Third, to coordinate what the State's role, the Fed's role, 
the State's money, the Fed's money, the city's role, the city's 
money, is going to be in this massive rebuilding effort. If 
not, we are going to have a situation--and New York has 
struggled with breaking ground on the rebuilding of two 
buildings 4 years later. Great plans, lot of discussion, but 
still controversy on what is going to be at the site of the 
World Trade Center. Here we have an entire set of communities.
    So I would offer those thoughts, but to put people and 
their needs first as the most immediate objective.
    Chairman Collins. Thank you. Mr. Logan.
    Mr. Logan. I think in terms of my observations for the 
United States and the role that the Red Cross would have on 
that, the American Red Cross are the people that you would need 
to talk to about in terms of their very specific activities and 
recommendations. However, it is very clear, and I would concur 
that the question of the continuation of a coordination 
mechanism, based on the relationships and the successes, 
because there will be and you have already identified successes 
in coordination. That coordination has to look to the long 
term, and it cannot be a separate series of processes. They 
have to link to the very foundations.
    The fact that you have got such a widely dispersed 
population, as Mr. Morial has said, means that you are going to 
have to throw that net very wide, and that means there must be 
a common message that people can buy into. That population that 
have been displaced, who will come back, have to feel that 
there is a clear motivation for them to return, that things 
will be better.
    And building better of course is not just simply building a 
better school, it is building more hope. The amazing thing--and 
I think the opportunity for that coordination is that in the 
worst disasters that I had been involved in, it has in fact 
broken the cycle of poverty. It has given people opportunities, 
and I think that linking all of those social elements along 
with the very dry but essential elements of the technical 
rebuilding is critical and the more successful initiatives that 
I have seen on recovery.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thank you, Madam Chairman.
    Thanks to this panel. You have been extraordinarily 
helpful, I must say both programmatically, and if I can put it 
this way, therapeutically. I think programmatically you have 
given us a series of recommendations from your own considerable 
experience that, Madam Chairman, we may want to consider 
passing on to the appropriate administrative agencies of our 
government, or even insofar as it is relevant, turning it into 
legislation.
    I say ``therapeutically'' because the end point of all that 
you have had to say, based on your experience and attitude, is 
hopeful, that not only can you rebuild from a disaster, you can 
rebuild--what was your phrase, Mayor Owens? Bigger, better, 
stronger----
    Ms. Owens. Bigger, better, stronger.
    Senator Lieberman. I like it. So thank you for that.
    I want to pick up on Senator Collins' question and the 
answer that Governor Wilson, you gave, and others did, too, 
which is about the need for a new structure here. We all saw 
that one of the problems apparently--and we will know it better 
when we proceed with our investigation--in the preparation and 
response to the Hurricane Katrina was some troubles in the 
relationship between the different levels of our government. It 
seems to me that as we begin to contemplate, not just the 
recovery but the rebuilding, which would be the largest 
rebuilding in our Nation's history, we have also to think about 
three levels of government and how we put them together.
    I take it under the existing national response plan, FEMA 
gets the responsibility to oversee rebuilding and recovery from 
the Federal Government point of view. I think we are all seeing 
that something larger is necessary here, and I wonder if you 
have any ideas on how we can do that, of how we can put the 
three levels of government together. Some have recommended a 
public authority, a kind of private/public new entity that will 
oversee the reconstruction of the communities that have been 
devastated.
    Governor Wilson, you are a great place to start because you 
have had experience at the local, State, and Federal levels of 
our government.
    Mr. Wilson. Senator Lieberman, I think the answer is that 
you need to coordinate all three, and you are not going to have 
the same solution each time. It does need to be tailor-made. I 
think a fundamental principle is to allow the local initiative 
to have maximum exercise. There will be limits imposed by law, 
some imposed simply by circumstance, but I must tell you that I 
have great confidence in New Orleans. I have a great affection 
for the city and a great admiration. I travel there frequently 
these days because I am privileged to serve as a trustee of the 
National D-Day Museum, which is located in New Orleans, in fact 
has become the major tourist attraction there.
    It is in New Orleans because New Orleans acted after 50 
years, when no one else in the country did, to recognize a 
responsibility to build that museum as a memorial to the most 
important event of the last century and to the people who teach 
succeeding generations of Americans that freedom is not free, 
that it has to be repurchased by the courage and the sacrifice 
of people willing to fight and die for it.
    Congress--and I thank you for it--has officially recognized 
that contribution by recognizing the museum as America's 
official World War II museum. The people who built that--and it 
is still a building, and we have an ambitious campaign under 
way--the people who took the initiative are extraordinary.
    The business and civic leaders in Mayor Morial's city 
grabbed the ball when no one else had, and I have confidence 
that their pride in their city and their determination to 
complete that task is the kind of thing that will allow New 
Orleans, given time and the adequate tools, one of which we 
have discussed today--and I put it at greater length in an op-
ed in yesterday's Wall Street Journal--I think they can be 
expected to rebuild it bigger, better, and stronger, to use 
Mayor Owens' phrase. I think to the extent that you have got 
people who are self-starters like that, what you want to do is 
look at how you can enable them. I would say that the role for 
Federal and State Governments is to be as great an enabler as 
possible to those at the local level.
    Senator Lieberman. I will share briefly a story with you. I 
heard from a friend from New Orleans yesterday that when order 
began to collapse in New Orleans, there was just a slight bit 
of looting that went on at the gift shop at the D-Day Museum. 
Somebody there ran out, and the National Guard came rapidly to 
take position around the museum to protect it for all the 
present and past associations with it.
    My time is rapidly going, but I wonder if anybody else has 
a thought about the structure--the most obvious thing is to 
create a so-called czar, but is there a different kind of 
structure here that integrates the different levels of 
government? Mayor Morial.
    Mr. Morial. Senator Lieberman, your question is intriguing 
because it certainly provokes the thinking that you could have 
a super enterprise or empowerment zone that would be managed by 
some sort of special public authority or some sort of special 
public agency that would have representatives of both the 
State, the Federal, and the local government on it that would 
be sort of a coordinating conduit for the rebuilding that would 
be tailor-made because the challenge for FEMA is FEMA has 
ongoing responsibilities for other disasters. Hurricane Ophelia 
is there. Snow emergencies and weather emergencies that arise 
during the winter, another hurricane season, tornadoes, all of 
the myriad of natural disasters, and this is critical. But they 
have got to also keep their eye on the continuing ball of other 
natural disasters, which is why your thinking that a 
specialized public authority might be a good idea.
    I think the most important thing is that it not be seen as 
some sort of Federal usurpation.
    Senator Lieberman. Correct.
    Mr. Morial. That it be a true partnership.
    Senator Lieberman. Mayor Owens, you want to add a word 
quickly?
    Ms. Owens. I agree with you, but I think also I agree with 
you. Government starts at the local level. You have got to be 
that person who works with Washington. You have to work with 
your State, get your governor on board.
    Now, FEMA in our case--and I know this applies because I 
went to Virginia for a week when they had the hurricanes 2 
years ago to tame some tempers that were--people were under a 
lot of duress. And FEMA, actually after they are dispatched, 
they are accountable to the State. The State tells them what 
they want. They tell them how much ice they want to come in, 
what they should be doing. So a lot of times I think people do 
not understand that the State also gives them the authority 
when they are there to do whatever they are going to do, and 
that is what they did not understand in Virginia. It worked a 
lot better when they started doing that.
    To put an agency together, I think, is very simple because 
when you have a disaster the first thing that you should do is 
get your local, State, and Federal Governments right on board. 
And this was just such extenuating circumstances. I do not 
know, in another case like this, if it could be better or not. 
They get on the ground as quickly as they can, but yet they are 
small compared to the amount of disasters that are happening.
    Senator Lieberman. Thank you for your answers. I must say 
it was a question I asked without having an answer to it. I 
think we are all struggling for the right answer here. You were 
very helpful.
    I do want to say real quickly--something that was said 
earlier--I heard from a friend from New Orleans, who is a 
business leader--this fellow said a certain number of people 
will come back to New Orleans no matter what, a certain number 
of people will not come back no matter what, but there is a 
large group in the middle who need the confidence and the hope 
to come back, and the number one thing that will bring them 
back is reconstruction of the levees up to Category 5.
    Mr. Wilson. Madam Chairman and Members, forgive me. You see 
me poised to take flight because I have less than 2 hours to 
get to Dulles, and I have to be back in Los Angeles by 6 
o'clock.
    Chairman Collins. Thank you very much for being here, 
Governor Wilson.
    Mr. Wilson. Been a privilege and a pleasure.
    Chairman Collins. We very much appreciate it.
    Mr. Wilson. Thank you.
    Chairman Collins. Thank you.
    I am going to call on Senator Voinovich. Unfortunately we 
do have two votes on right now, and I am going to go vote and 
rush back. If anyone is here after Senator Voinovich finishes, 
feel free to pose your questions, even if there is nobody 
officially chairing. You can be temporarily the Chair, and I 
will return. Thank you for your patience.
    Senator Voinovich [presiding]. Thank you, Madam Chairman. 
The real issue here is what is this Committee going to do? 
Hearing from these excellent witnesses, it seems to me that the 
focus of this Committee should not be on what happened but on 
what we are going to do to deal with some of the things that 
have been talked about. Mayor Morial has talked about dealing 
with--where are the people? How are they going to be? Where are 
they living? What about the medical care? Do they have jobs? 
And so forth.
    The next issue is, what are they going to do to rebuild the 
city? As Mayor Owens has pointed out, we need to collaborate 
and cooperate. We should bring together people who know a lot 
about FEMA and disaster recovery to work with the 
Administration.
    In the future, I look forward to hearing about two best 
practices out there. Additionally, I look forward to hearing 
from the Administration and asking them questions about what 
their plans for response and recovery are. But right now, we 
have to take care of the people, and we have to give them good 
information.
    Mayor Morial, the question I would ask you pertains to the 
issue of information. We know that some people are going to 
leave, some are in limbo, and some definitely will come back. 
But I really think that people have to be informed. I 
understand that we cannot provide them with information 
immediately, but do you not believe that the sooner we can give 
them the facts about what is going to happen, the better off 
everyone is going to be?
    Mr. Morial. I agree, and I think one of the mistakes along 
the way in this has been, is just the communication has been 
very disjointed. You are right, people need a place to go to 
get accurate information. My concern is what I call false hope, 
news reports that this section of the city is open, but that 
section is not open. The minute any section is open people are 
going to seek to return because they want to go examine their 
homes. They want to go examine the whereabouts, particularly 
those who evacuated beforehand, which is about 75 to 80 
percent. But communication is key. I do not know if it has to 
be multi-faceted, an official website, perhaps with official 
communications that would come from a czar or FEMA or jointly.
    There is a lot of--and it is prompted--I know this because 
I get a lot of phone calls from people who said, ``I heard this 
on the radio but I read that in the paper. What is true? What 
in fact is the case? Is the city going to be drained in 8 
weeks, or is it going to be drained in 12 weeks? And then when 
will I be able to return? How about my insurance claim? How 
about my automobile insurance claim? Do I have to pay my 
mortgage? Do I have to pay my bank loans? If I write a check is 
it going to bounce? Where can I get information about my basic 
human existence short term while thinking about what I need to 
do long term?''
    So communication is important. Where the buck stops on that 
at this point is a question that needs an answer. Someone has 
got to say ``I have got the responsibility for communicating, 
and I am going to communicate daily.'' And when that person 
talks, it is not that a local official is going to say one 
thing, and then in the afternoon a State official is going to 
say something else, and then a Federal official the following 
morning is going to say, ``No, no, no, that is not the case. 
Where did you get that information from?''
    That is very important at this stage. I think the media 
that has covered this, as many have expressed to me privately a 
desire to report accurate information, but they do not know 
what the centralized departure point is for that information.
    Senator Voinovich. We had a wonderful briefing last week 
where many of the Cabinet Secretaries spoke about what they are 
doing in response to Katrina. I was quite impressed with the 
waivers they are talking about giving. I wish that everybody in 
America had a chance to be there to hear the lengths to which 
the Federal Government is going in response to this disaster. 
The challenge is how do we get good information and adequate 
coordination? What has happened is, for instance, we thought we 
would have 1,000 people in Ohio. It was not until just prior to 
the planned arrival that the plans to send evacuees to Ohio 
were cancelled. But 200 families have come to Ohio unassisted 
by DHS. The Federal Government is trying to provide these 
individuals with an ID number so that they know who they are 
and how they can provide them with the best information. I know 
one of the things you are talking about is moving people out of 
the area even though they want to come back.
    I had the EPA Director in yesterday. He said that the water 
is just horrible, and they are really concerned about the 
conditions. Mayor, you just brought that up, you had to go back 
and make sure that the areas were sanitized so that if people 
came back, they would not be exposed to hazardous substances. 
My question is--do the people know this? We must get the 
information out.
    I have dealt with FEMA as governor of a State. In my 
experience, they come in and they help, we get the program in 
place, and we tell everybody what they are entitled to, but 
ultimately FEMA leaves, and the State and local governments 
take over. Is that not what happens?
    Ms. Owens. Right. They stayed with us until their job was 
done, which was quite a long time because that was the only 
disaster at that time. But the staff continually goes down. 
They can be there 2 or 3 months. In this case I would say they 
will be there--unless we have others--I would say they have a 
1- to 2-year battle there.
    Senator Voinovich. The question I have is in terms of 
recovery.
    Ms. Owens. But they are there to help because----
    Senator Voinovich. But the fact is, what they are doing is 
they are helping you access Federal programs and other programs 
that are available. Correct?
    Ms. Owens. Right.
    Senator Voinovich. IT, the Department of Labor, 
unemployment, and all those other things.
    Ms. Owens. Right. They are just wonderful to lead the 
people through that. I mean they have people in their 
organization that will help lead them through that.
    Senator Voinovich. Recovery, rebuilding homes, and that 
type of thing. Again, what we need is information. Who ran that 
in your town?
    Ms. Owens. Who ran the information part?
    Senator Voinovich. No. Who ran the actual operation? You 
talked about--what you got, $500 million and an advance of $100 
million.
    Ms. Owens. Right. That is why I just appointed three tri-
chairs and a five-member flood response committee out of our 
city council, and myself.
    Senator Voinovich. And you ran the response?
    Ms. Owens. City Council and those three tri-chairs with the 
help of others--they were the main, and I was the voice that 
spoke in front.
    Senator Voinovich. How about your State Government? Were 
they at the table or did they just access programs they had?
    Ms. Owens. Everyone was working, but they were not always--
they were at the table at the beginning until we had things 
lined up. They always had a representative there. In fact, the 
governor appointed one of the retired National Guard as the 
lead for the State. So that person was at that table all the 
time.
    Senator Voinovich. How about the Federal Government, who 
was at the table?
    Ms. Owens. Federal Government, honestly, every time I 
turned around one of the three would come in if there was 
anything urgent or anything detrimental. They were with us all 
the way. I mean we would talk daily. We would get in on phone 
conversations. I mean they were there, all of them were 
together. That is what I was saying was so unique because we 
discussed almost daily, for over 2 years, even longer than 
that, as things progressed. At the beginning it was more, and 
then we would kind of siphon down. But they were always there.
    But it was our five-member flood response committee out of 
council. We had 14 council people, so you can imagine that is 
not easy. And then the three tri-chairs with the different 
things they were working with because somebody has to lead the 
infrastructure and dealing with the new flood control, which I 
said is No. 1 to me, to get the people some hope that when they 
go back it is not still vulnerable.
    Senator Voinovich. So one of the first things that you 
think we should do in New Orleans is to decide whether or not 
we are going to rebuild the levees, to get that information 
out, and to give people an idea of how long it will take in 
order to get that done. People must know that they are going to 
be taken care of or many will never come back.
    Mr. Morial. Right. The levee system, and also not much has 
been said about the drainage system, which the levee breaks 
which occurred, occurred on levees that protected the city from 
manmade drainage canals, not natural bodies of water, and those 
drainage canals take water from below the streets of the city 
into the lake. So when the levees break, it has the effect of 
the lake water reversing back into the canals into the city. So 
the levee system and New Orleans will realize, the drainage 
which is a subsurface water system, to know that it is 
operational, the pumps are working, there is a system of 
redundancy, will give people some confidence that there are 
better protections from a Category 4 or 5 engulfing the city in 
the future.
    Senator Voinovich. I have just been informed that there is 
no time left on the vote, and I am hoping that they will keep 
it open. The Chairman of the Committee will be coming back, but 
I am not sure whether any of the other Members will, so please 
stick around for a little while.
    This is one of the best panels that I have questioned since 
I have been a member of the Senate. I thank you so much for 
being here, and I suspect that the Chairman and the Ranking 
Member will be back in touch with you for more of your ideas. I 
am going to recommend that we get the best ideas and find out 
what the Administration is doing and see if it meets the 
benchmarks that some of you have established in your respective 
communities.
    And Mr. Logan, it is incredible to hear what the Red Cross 
has done and what your experience has been in some of the areas 
that you have come back and rebuilt. Thank you very much for 
being here today.
    Mr. Logan. Thank you. Thank you, Senator.
    Senator Voinovich. I will say that the Committee is 
recessed until the Chairman returns.
    [Recess.]
    Senator Lieberman [presiding]. Folks, since I am here I 
will be happy to take advantage of your collective wisdom, and 
as soon as any other Member comes back, I will be happy to 
yield to that person. I thank you again.
    Some of you referred to an aspect of this that is very real 
and human, but we do not always talk about it and figure out 
how to deal with it governmentally. And that is the 
psychological impact of going through something like this.
    I keep referring to friends I have in New Orleans. I love 
the city. I was thinking, mayor, as we talk about it, that New 
Orleans, of course, is a tourist town. And in part that means 
that it is one of the cities that I bet you most Americans feel 
really good about, feel like they have some part of themselves 
there. But also, in all the ways that you said, for what it has 
contributed particularly to American culture, it is a part of 
America.
    But anyway, just to ask the question from what you have 
been through, there are people walking around, both those who 
went through the worst parts of this, losing somebody, losing a 
family member or friend, or going through the awful conditions 
of the Superdome and the convention center, or frankly, I have 
talked to some friends who said that they feel lucky, their 
families have enough money, they evacuated, and ended up in a 
hotel in Baton Rouge or Memphis. But the house is gone. They do 
not know where the law office or business is or what the future 
is. You have all gone through that in different ways.
    What, if anything, can government do to be responsive to 
that particular dimension of this? Because if people are truly 
wounded, it is going to be hard psychologically. It is going to 
be hard to have the kind of recovery that we want.
    Mr. Morial. The others may be able to add, but I think it 
is a subject for the experts. I think that the Committee should 
publicly, privately, the staff talk to experts who confront 
this sort of massive trauma, and to a great extent massive 
grief. I know I fought back tears the first week to 10 days, 
particularly when I watched television. I know that friends and 
family members have called me, sobbing, in tears, going back 
and forth from thanking the good Lord that they are living, but 
lamenting the fact that they have lost much.
    The other component of it that I think could be addressed 
is family separation. There are people who cannot find their 
family members. Family reunification, and sometimes it is just 
a case of information, but if you cannot find your family 
member, you think they may be one of the deceased. You do not 
really know because people were separated at evacuation, and a 
family is in New Orleans, like it is in so many communities, it 
is an extended family. It is several generations who might not 
necessarily share a home but lived in the same neighborhood. 
One may have gone to Memphis, one may have gone to Houston, one 
may have found their way to Austin. You do not know. So family 
unification is certainly something. But I think on the overall 
question the only thing I would add, I do not feel competent or 
qualified to address that except to say it is massive grief and 
massive trauma.
    As I sit here, you fear that the phone will ring and 
someone you knew very well was in the deceased category. I know 
I learned from a man I talked to in Houston about the 
neighborhood that I grew up in, where the water was to the 
ceilings, and I said, ``Well, did you think people got stuck?'' 
He said, ``I know people got stuck.'' He says, ``I am lucky. I 
had a second floor on my house, so I was able to await 
rescue.''
    It is something I appreciate you and the Committee's 
concern for, but I think it is a subject that the public health 
experts and the mental health experts ought to be tasked with 
helping the country deal with.
    Senator Lieberman. Mr. Logan, you have been through this. 
Senator Collins asked a question about the emotional 
consequences to individuals, communities, as a result of this. 
We see it from those who went through the worst of it, and 
some, as I mentioned, as you said to me, had enough money in 
the bank, they are not worried about their future in one sense. 
They evacuated. But their lives have been altered. Their homes 
are gone. Their offices are gone.
    So I ask if there is a government role in this and how 
important is it? Mr. Logan.
    Mr. Logan. I think there is an interesting dynamic that 
certainly I have observed, and I have even been part of it 
myself, I suppose, in other disasters. What is going through 
your population right now is a stress that is primarily 
adrenalin driven, get out of the city, get away. We talk to 
people, there is even a certain excitement about it. There is 
grieving, but the whole thing is a pivotal moment in their 
lives, and it is very much adrenalin driven.
    This is not the same as losing a family member, where it is 
you and your family. The grieving process will go ahead. What 
is really special about what is happening like this? It is the 
stress that comes later, and it is the stress of sometimes 
impotence against a bureaucracy. The normal things go beyond 
the disaster. It is getting your life straightened out. It is 
sorting out your mortgage payments. It is do you put the kids 
in one school?
    And this is what is happening in Indonesia right now. What 
our psychological teams are finding is that the level of 
psychological stress actually increases but in a different form 
after the disaster has gone. As the adrenalin goes out, you are 
faced with the numbing problem of not having your surrounding 
community, not having your family, not knowing what to do.
    I watched one of your psychologists on television talking 
to a lady who is in a wheelchair. She had spent her whole 
life--she was 70-years-old--in New Orleans. She was in Montana 
or somewhere, and she said, ``I don't know whether to be so 
grateful for these people from the American Red Cross and the 
government who are helping me, or to commit suicide, because I 
don't know what to do. I've got no friends. I've got nothing.''
    So I think that the authorities in government have to look 
at the psychological impact of this as a long-term thing. One 
of the benefits that we have had in the tsunami operations, for 
the first time ever we have been able in the international 
humanitarian to have funds that will allow us to put in 
programs which normally we can only run for a few months, for 
programs that can be run for several years, and I think that is 
a challenge that is faced.
    Senator Lieberman. Mayor, do you have any reaction to my 
question based on what the folks in Grand Forks experienced?
    Ms. Owens. Yes. We put together--you do not realize when 
you are starting with this that you are going to have all that, 
but even at the very beginning I would have calls that--well, 
for instance, this man was in his home. He had a gun. Neighbors 
called. He was going to shoot himself. Well, that is when I 
discovered also what we were going to go through 
psychologically. In fact, I almost adopted, through the whole 
time I was in, a young boy who had lost his grandfather, and he 
could not recover. So his dad asked me to help him, so I just 
took this kid--it is a smaller city--but I took him, and I did 
whatever I could to help him.
    But the main thing, FEMA does have people that line that 
all up for these cities and so forth. When that happened, all I 
did is--(I was in the same building). I went and got them. They 
went out there, and we had several like that. They do have a 
division of their FEMA people that work with that. By the time 
they were gone, we had lined up through our local United Health 
Services a group of our top psychologists, psychiatrists, 
agencies like the Northeast Human Service Center, that type of 
thing, and they had already gotten together, and we just 
actually sent to them.
    Another thing that happens is your own people, the city 
staff, and county staff who are working, become psychologically 
burned out, and that is something you really have to watch for 
because it can be very detrimental to the recovery of your 
city. We had much of that. Eventually we hired on a person from 
the Minneapolis area, and at least we had somebody to send them 
to and also a local psychiatrist. We had an employee assistance 
program, and it lasted a long time. In fact, there is still 
some of that, 8 years later, those that really still need the 
help.
    Psychological is going to be one of the biggest problems 
because they are hurting.
    Senator Lieberman. Thank you. Senator Collins.
    Chairman Collins [presiding]. I almost said, thank you, Mr. 
Chairman. That is really scary. [Laughter.]
    Senator Lieberman. That is very kind of you. You have been 
very generous in working together, but I do know I am the 
Ranking Member. [Laughter.]
    Chairman Collins. Mayor Owens, I was struck by the fact 
that you had a fairly sizable city, 50,000 people, that you had 
to evacuate. And I assume that means that temporarily you had 
to house them as well. One of the major challenges we face with 
Katrina is we are going to have to provide long-term housing 
for some 450,000 families in addition to many more who have 
short-term housing needs. What did you do for housing?
    Ms. Owens. Of course, like I said, I do not like our title, 
but we were the largest disaster per capita ever in the Nation 
until this one. And we evacuated the largest American city. I 
mean I look at the area now, and it is similar, but it is so 
much smaller.
    The only thing is, when our people left, they went to 49 of 
the 50 States, and many of them had to--I mean they could not 
come back because the homes were gone. There were homes 
destroyed, homes wet. What we did is we brought in the 
trailers. We had 400 trailers on our side of the river, and I 
do not know, 200 to 300 trailers on the other side of the river 
in East Grand Forks. And they lived in those for 18 months, a 
lot of them, until we could get some housing stock rebuilt.
    We formed a group with Grand Forks Homes, Inc., which is a 
private investing company in our city, and Fannie Mae, and 
worked to build--and private financial institutions--to build 
200 homes so people would start coming back. If we saw that we 
were having more problems, that things were not getting cleaned 
up, we were going to do more. That is controversial, too. It 
was not at the beginning. But then when things started getting 
better, the realtors were not happy. But we got in the middle 
of that. You have to do this or you are going to lose your 
people. But housing that many people, I said, ``As I look at 
it, I do not know, I think the people across the United States 
are just going to have to each help some of these people.''
    The thing that I could not get (and I know I would not do 
it), but I know they have to, is they take you out of a 
shelter, put you on a plane and you do not know where you are 
going to land. That just got me. I do not think I could do it.
    Chairman Collins. That actually is a great segue to the 
question I had for Mr. Logan. I was struck when you mentioned 
the fact that you cannot force people to live where they do not 
want to live. And FEMA officials have told me that one of the 
very big challenges that they are facing is helping displaced 
families to come to grips with the fact that they are not going 
to be able to go home any time soon.
    We have also seen--for example, there is a former closed 
military base in Northern Maine, where I am from, which could 
accommodate some 200 people. I am shocked to learn from FEMA 
officials that people from the South are not that eager to go 
to Northern Maine and live there for a period of time. 
[Laughter.]
    I am sure they would love it if we could get them there, 
but in all seriousness, how do we deal with the housing needs, 
respecting the preference of individuals, and yet accommodating 
an overwhelming need not just for temporary housing, but for 
long-term housing.
    Mr. Logan. I think in the case of the United States, it is 
very different from the ones that I have been involved in where 
the capacity of this country is so enormous, but I do not think 
it is immune from that very dilemma. You are right, you 
cannot--well, you can force people to leave, but you have 
already seen what happens with mandatory evacuations. They are 
so sensitive that they are not practical. There are some 
countries, perhaps, where the political situation would just 
simply force people to leave. That is a forced evacuation, 
forced resettlement. And we in the Red Cross movement have been 
faced with the dilemma of what do you do when people have to be 
compelled one way or the other to leave.
    We do not get involved in that. What we do is if you are 
going to move a population, they have humanitarian needs, they 
have to be sheltered, they have to be fed. Clearly what we 
would try to do is advocate for alternative solutions, and this 
is what we are doing, for example, in Indonesia, where there is 
no way that we can put 100,000 families into permanent housing 
tomorrow. In Sri Lanka they have never built more than 5,000 
houses in a year ever, and we have to build it. So you look at 
various different alternatives, and you have to listen to what 
people are saying.
    Interestingly enough, a number of years ago I was working 
with the American Red Cross on disaster management exercise, 
and one of the tasks that they were asked to look at at the 
time was, what are you going to do if you had to evacuate a 
major city in the United States? And specifically it was to do 
with shelter because traditionally, internationally anyway, the 
Red Cross movement is involved in shelter. It got down to--
there are certain parameters. You had to be 200 miles from the 
city because of contamination. I think it was a weapons of mass 
destruction type of scenario. You could not use schools and 
hotels because they would be needed later. Very quickly, 
everybody was saying, ``Well, we cannot do this. How can you 
house 200,000 people?''
    And interestingly enough, the international member said, 
``Oh, yes, we can do it. We do it all the time. You put them 
into tents.'' And they said, ``Well, you cannot use tents.'' 
But ultimately you have to use whatever is there, and then you 
work up. In the tsunami what we are seeing is there will always 
be someone in a tent until it is finished, and there will 
always be somebody who goes first into a new home. If they have 
to stay in a tent, we have to make sure that is the best 
possible tent that we can get them, and they are already 
beginning to degrade, and then you move them up.
    The problem is, if you move them into temporary 
accommodation, in any society in the world that I have been 
to--and I have been to 50 countries now--there is always the 
worry that if I am the first one into a tent will I be the last 
one to get a permanent house? So this requires a lot of 
communication. It requires a lot of transparency, and above 
all, it requires listening to the people and letting them be a 
part of the solution.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman. I 
listened attentively here to all the experiences you have gone 
through, all of you, and no question that what you are stating 
to us will be helpful.
    Mayor Owens, I have been a key proponent of pre-disaster 
mitigation programs. Do you know if your city at that time 
benefited from any of FEMA's pre-disaster mitigation programs 
prior to the 1997 flood? And if so, how would you assess their 
effectiveness?
    Ms. Owens. When the 1997 flood occurred, we were in the 
process, through our city building enforcement, of trying to 
work with and enforce the 100-year floodplain. And FEMA came in 
and they worked--I have testimony that I have sent in. We had 
to comply with that disaster resistant community plan that they 
had. They have acknowledged to us that we were one of the 
committees, as we were rebuilding, that complied totally with 
what they wanted in place. Before we had started, we were 
building a flood control project that we were halfway through. 
We had to throw it away because it was not any good.
    We had, in fact, even talked with the Corps of Engineers. 
We are flat, but they were going to build it around us, so we 
would have been like in a bathtub, and New Orleans was one of 
the ones that I knew very well because they would talk to us 
about it.
    But it came about from the FEMA plan. That was one of the 
best programs they have. I do not think they have it any more, 
and I think it was a wonderful plan. They need to do that 
because these events are going to keep happening time and time 
again.
    Senator Akaka. Thank you for that. I understand that there 
was a mandatory evacuation of Grand Forks, which has a 
population of 50,000. Did anyone refuse to be evacuated, and if 
so, how did you handle those refusals?
    Ms. Owens. I do not know why, but for some reason or 
another, they listened to me, and maybe it is because I had 33 
previous years with the city and had been front line with four 
mayors. They knew me personally, and it is a smaller city, you 
can know the person personally.
    But we had people going through the city actually with bull 
horns. We had the fire department, the National Guard. We had 
the Coast Guard. We had the police department, and actually, 
the National Guard was already trying to clear out the nursing 
homes and all that were in those low areas.
    They did listen. There were some that did not, 
unfortunately. A group of them that did not were in that 
building that caught fire downtown. They had left the 
electricity on. They did not tell me, but they knew there were 
some people still housed up there. That is what shorted out. So 
when they went in, they could not get in, they could not use 
fire hydrants. They could not do anything to hook up, so the 
fire department saw those people and got them out. There were 
kids. And, yes, there was even a county commissioner and her 
husband who refused to leave who lived right behind my home. We 
did not force them, but we did remind them that the worst cause 
of death in a flood is electrocution or fire and that we would 
not respond because we did not want to put our first line 
responders in danger for their inability to take charge of 
their own lives.
    Senator Akaka. Grand Forks Water Treatment Plant was shut 
down during the 1997 flood.
    Ms. Owens. Absolutely.
    Senator Akaka. What was the extent of contamination of your 
city? And based on your experience, what would you recommend in 
terms of handling the cleanup?
    Ms. Owens. I will tell you, I know everything that had been 
touched by the floodwaters had to be discarded. We had tons and 
tons and tons of garbage. I cannot tell you the extent--I just 
know everything was contaminated. We had animals and things in 
there, too, but we lost no human lives. There was fuel oil, 
there were chemicals that it had picked up.
    One thing that we did is we delegated to the State Health 
Department and our Health Department officer in the city, and 
they worked with that, with the EPA, and of course, legally 
with our City Attorney. That City Attorney stood out with 
everything we did.
    Chairman Collins. Excuse me for interrupting for just a 
moment, Senator Akaka and Mayor Owens. The second vote, the 
time has expired. I have not voted, so I am going to go vote, 
but I would be happy to turn over the gavel to you, Senator 
Akaka, so that you and Senator Pryor can complete your 
questions.
    I do, before I run off, just want to thank our witnesses 
since I will not be coming back this time, and to say that the 
hearing record will remain open for 15 days for additional 
materials.
    But thank you so much for your excellent testimony and for 
sharing your experiences with us.
    And, Senator Akaka, I am proud to turn the gavel over to 
you. Thank you.
    Mr. Morial. Thank you, Senator. And I have to excuse myself 
also to get to another engagement. Thank you.
    Senator Akaka. Thank you, Madam Chairman.
    Ms. Owens. Mr. Akaka, I think the thing I would tell you is 
that even with the size of our city with all the technical 
things, we really turned over and left it to the experts, and 
they were remarkable, with the EPA in cleaning up our city.
    Senator Akaka [presiding]. Thank you for that. Mayor Owens, 
I understand that the flood caught Northern System's Power--one 
of the largest power supplies in North Dakota--by surprise. But 
it was still able to implement an emergency shut-down plan. 
When power was re-energized to the city, were any steps taken 
to minimize the possibility of fire outbreaks, and how do you 
assess their planning and their implementation?
    Ms. Owens. Well, we had no power for probably a week 
before. With the ice storm the whole region was out, so they 
had their plans well in line because they knew what was coming. 
But the only thing we did is we had our State Electrical Board 
and our City electrical people, enforcement people, before 
anybody could enter any building after the electricity was on, 
they had to check it through thoroughly.
    Senator Akaka. Thank you. Let me ask one question of Mr. 
Logan, and we will have questions from Senator Pryor.
    Mr. Logan, you were involved in the tsunami relief effort 
in Southeast Asia. As you mentioned in your testimony, many saw 
the disaster also as an opportunity to implement a 
redevelopment program for the region, and that would raise the 
standard of living for the residents. Yet one of the problems 
was the Indonesian Government's slowness in developing and 
implementing plans.
    Based on your experience, what recommendations would you 
make to city, State, and Federal officials in the States 
affected by Hurricane Katrina as they begin planning for 
reconstruction and redevelopment?
    Mr. Logan. I think that is a question that has overarched 
across boundaries, so I do not think I am in a position where 
as a visitor I am suggesting recommendations to yourselves.
    It is true. Forget the additional complication in both Sri 
Lanka and in Indonesia, that these were states in conflict. 
There was ongoing conflict there. And that the Bandar Aceh 
province had been effectively a closed province for nearly 30 
years, which added to the complication. Consequently, the 
Indonesian situation, there is perhaps some understandability 
that the mindset of the government had to turn around to go to 
a massive redevelopment in a region that was actually going in 
the opposite direction, requires quite a change of turn. It is 
a bit like chaining an aircraft carrier, you will get around 
there eventually, but it is a big circle.
    What became clear, and where I think the lesson is in both 
Sri Lanka and in Indonesia, which are the two biggest ones, but 
very clearly and positively demonstrated in the Maldives, a 
much smaller country, was that once the decision was made that 
there was a need to look at this beyond simply throwing up a 
few little houses for the fishing communities, that there was 
in fact not only an opportunity, but in fact an obligation to 
build better, if you like. In the case of both of them, they 
established a specific focal point that would transcend the 
national, regional, and local authorities without cutting them 
out, in other words, incorporating them. By the way, even in 
Iran, ultimately it was the state and the city who actually 
took on the lead even there.
    The feeling there was that if we can do this now, we can 
learn from this, and the urging of former President Clinton and 
his group is that this is an opportunity to establish a 
mechanism that does not necessarily have to be large, because 
many of the communities that I helped respond to are quite 
limited in capacity, but something that is extremely flexible. 
In other words, it has a mindset that between disasters it is 
there working on preparedness and being ready, and this 
cultural awareness, but that the mechanisms are there for it to 
rapidly expand to meet whatever the scope of the disaster is.
    So I think that those countries that have realized that 
other disasters will come, and that disasters do in fact give 
you an opportunity to address risk, to build better both 
socially, to build better both in terms of architectural and 
building standards. That needs to be continued as a mindset 
between the time when there are no disasters. And I think 
therein lies a lesson that has been learned in many countries 
around the world, the success that it has been implemented 
varies, but certainly we are seeing some real progress now in 
Indonesia after that decision was made, and they got a 
particularly effective individual, and that is why I am saying 
I think the individual very much will be the person who drives 
that forward ultimately.
    Senator Akaka. I will turn the questioning over to Senator 
Pryor. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. Now is our chance. 
[Laughter.]
    Senator Akaka. It is your time.
    Senator Pryor. Mayor Owens, let me ask--I am sorry I had to 
step out for those votes--but in your area you had extensive 
flooding, is that right?
    Ms. Owens. Yes.
    Senator Pryor. And an ice storm?
    Ms. Owens. Well, it started, we had over 100 inches of 
snow, eight snowstorms that just crippled our area all the way 
from October through to April, so we had been battling with 
that. We had to even acquire the help of the National Guard to 
keep our roads open it was so bad. Our whole State was 
inundated.
    It was the largest disaster ever per capita in the Nation 
until this event, and we evacuated 50,000 people. We had the 
ice storm. We were sandbagging at that point. We always had 
some type of flood. But then 14 inches of snow the next day, 
and then right after that we had to dig the snow away so we 
could continue to sandbag on the levees. And then it just 
melted too quickly, and we had the Red Lake and the Red River 
of the north, ice jams, and we just got inundated.
    Senator Pryor. Right. How much water did you have in your 
city? How high was it?
    Ms. Owens. It was anywhere I think in the lower--well, what 
we call the Lincoln Drive area, they had a levee system in 
there that had been in since the 1950s. That is the first one 
that breached. I am not sure of the extent of it, but it went 
over the roofs of the houses. They were just floating. 
Otherwise, I would say throughout our city, anywhere from 4 to 
6 feet of water.
    Senator Pryor. So in other words, when you see pictures of 
New Orleans, that looks like your city?
    Ms. Owens. I looked up my 10-minute film that I had, and 
you can identify right up to where we lost no people, and then 
that is where my heart just went out to them.
    Senator Pryor. After the water receded, how long was the 
water there in your city?
    Ms. Owens. We were probably flooded a couple weeks.
    Senator Pryor. After the water receded, what percentage of 
the buildings could be saved?
    Ms. Owens. Well, 90 percent of our city was wet, and I 
think we lost about, without the flood control project, we lost 
approximately 1,000 homes on our side of the city, and then 
East Grand Forks, Minnesota, lost almost their whole housing 
stock. They were totally under there in the 8,500 population.
    The majority of the businesses were wet. I would say the 
majority of them also could be saved.
    Senator Pryor. But a minority of the houses could be saved?
    Ms. Owens. Well, we have, let us see, all the ones along 
the river for sure, were gone, 1,000. So 90 percent were wet. I 
would say we lost a lot of our apartments, probably 40, 50 
percent of our housing stock at that time.
    Senator Pryor. I am just trying to get a sense of what we 
can anticipate down in New Orleans because I know it is 
different, but there are a lot of similarities to what you went 
through.
    Let me ask this in terms of the aftermath concerning the 
housing and also the commercial property; who paid to have them 
cleaned up, or maybe demolished and rebuilt? Who paid for that? 
Was it private insurance? Was it the government? How did that 
work?
    Ms. Owens. Both. We, first of all, had the $171 million 
that we got out of that $500 million disaster aid bill that 
Congress passed, we used much of that for help for businesses, 
to get them back on board. I mean we did some of that. The SBA 
a lot, most of it was private. They had to get loans. We had a 
lot of people that are still working at 75-years-old because 
they could not retire. They had to invest. But it was a 
partnership, but a lot of it was private money.
    Senator Pryor. Let me ask both of you a question concerning 
population. Arkansas is immediately above Louisiana, and we are 
to the west of Mississippi, so we have a lot of evacuees in our 
State. We do not know exactly how many, tens of thousands, and 
by one estimate, 75,000. Some are in church camps. Some are 
with friends. Some are in hotels. You all know the routine, you 
have seen this before.
    I was on the phone yesterday with a lot of the people who 
are running these camps. We have a lot of civic centers we have 
converted, but we also have a lot of church camps that are 
being used. That has seemed to work out very well. When I was 
talking to Arkansans on the phone yesterday who were in those 
camps and centers, they said that a number of the people they 
have talked to have said, ``Look, we do not have anything to go 
back to, and if you can get us a job here, we will just stay 
here.'' Has that been your experience?
    Ms. Owens. Yes. We did lose population at that time. I 
think the thing that I would say right now to New Orleans and 
the Gulf Coast is this is going to be a 25-, 30-year project as 
you move along. It is not going to be rebuilt overnight. It is 
going to take a long time. I mean that is just my thinking from 
what we went through because ours is about a 15-year project. 
But the one thing I would say, I think what really pulled the 
heartstrings in my household was you become blind to the 
poverty level of some of the people, and that just broke my 
heart. If these people go away and they can find jobs and 
stability right now, I think they need to do that. Let New 
Orleans and the Gulf Coast rebuild, and other people will come 
in, and these people may come back, but they need some normalcy 
in their lives because they cannot go on for as long as it is 
going to take to rebuild.
    Senator Pryor. Mr. Logan, is that your experience?
    Mr. Logan. I think it is exactly the case in any part of 
the world that I have ever been to. Some will never leave, in 
spite of the fact they are floating down the river. Some will 
never come back. The bigger group will be driven by the need to 
retain their family connections, to get their kids into school, 
whatever that may take.
    So consequently some will relocate for a certain period of 
time until they observe that the situation is sufficiently 
stable for them and their families to go back. So you have to 
make programs for the people who will come back immediately, 
the ones that may come back later on. What will your 
obligations be? This is a difficult one that some authorities 
can think around the immediate transitional needs, but they do 
not think through the fact that they may not necessarily be the 
ones that are calling the shots 5 years from now, and that is 
why I am saying you have to be ready to welcome them back, not 
just today or tomorrow, but maybe 5 or 10 years from now they 
may want to come back to their home, particularly those who are 
native to that city.
    And then others will see an opportunity that they never 
had. We are dealing very often with people who are not only 
moved from their city, but actually moved out of their country. 
They have become refugees. And I think that there are many 
stories that being a refugee, which was a term that was being 
used early on here, which is incorrect, but nonetheless, so 
many refugees actually become--they broke that cycle and there 
were opportunities, and I believe that there will be 
opportunities and you will probably find some hardy New Orleans 
people who actually find living in Alaska has given them 
something new. It is a broad spectrum.
    Senator Pryor. Right. And you touched on one of the reasons 
I asked that is because in our State, we have school districts, 
we have cites, counties, State that are providing services, 
etc. And just as I talk to them over the next several days, 
several weeks, several months, I just need to be ready to share 
my thoughts on how many of their resources they should invest 
in these folks because kids are in schools, they are trying to 
find jobs, all those issues. I want to tell you, I have never 
been more proud of my State. They have welcomed people with 
open arms. They have opened their checkbooks, opened their 
personal homes. They have given them cars. I mean it has just 
been amazing to see the generosity of people in Arkansas, and I 
am sure that is true in other parts of the country as well.
    But that is really why I was asking because I just would 
love to be able to advise either our governor or our various 
local people on what to expect, what the future might look 
like.
    Ms. Owens. Even in our case now, and I said New Orleans and 
the cities along the Gulf, of course, they have to recoup their 
economic development, try and get their people back for the tax 
base. But in our city, it can be an opportunity. It sounds 
terrible because there were lives lost, but these people that 
are at the poverty level, some of them might find jobs, a place 
where their children can go to school, a place where they can 
make a better living. To me, then they should take their 
opportunities, and other people will move in, or these people 
may go back, but it can be an opportunity for people who were 
living at the poverty level particularly.
    Senator Pryor. Let me ask another question on a different 
line, and that is concerning our experience in Arkansas, where 
a lot of these people, when they got off the buses, they were 
bewildered. They did not know what State they were in. In fact, 
there is one case--we do not have to relive all of FEMA's 
problems--but one example I heard is that people were loaded on 
the bus at the Superdome and driven all the way to the 
Astrodome. It was full. They were driven back to New Orleans 
even though there was no place to go back to. Apparently they 
waited on the parking lot, I heard, for 5 hours. I have not 
verified this, but this is what, anecdotally, people have told 
me. And then they were driven up to Fort Chaffee, Arkansas, and 
I do not know how many hours that would be, but anyway, they 
were processed there, and then they got on a bus to go to the 
camp wherever it may be. So some of these people spent a full 
day, maybe 2 days on the bus, maybe 3 days, I am not quite 
sure.
    And they were very bewildered, I mean literally, when they 
got off the bus, and some of them did not know what State they 
were in. Clearly a lot of these people really felt no real 
assurance from the Federal Government.
    And then I have heard stories where in one of these camps 
they kept saying FEMA will be here in the next few days, and 
everybody was anticipating FEMA coming. They finally came, and 
all they had was a guy with flyers, with just the toll free 
number and a website, and so there was a big letdown there.
    I guess my question is, based on your experience, is that 
common, or normally is there a government agency there that 
actually has a better game plan and is actually taking care of 
people in a more deliberative way?
    Ms. Owens. In our case they were there. I mean we did not 
have that problem. We had people in 49 of the 50 States. I mean 
they just--I do not know if you were here when I said that 
would be the hardest thing that I could do. I would probably be 
one of the ones that would not want to go to get on a plane 
when I do not know where I am going to be on the other end 
because you have lived here all your life. You are just ripping 
people, but that is what they had to do I guess.
    But I do not know. It was so large, I do not know if they 
could have--it could have been done better. They had to get 
them out to safety I guess.
    But what we did for our people who were evacuating, even in 
that small city, we had the ability to tune in through TVs. The 
media was wonderful to us. And every place where they had a 
large group of people in these cities, we had a press 
conference almost daily, so they would know what was going on 
in their city while they were gone. And that worked 
wonderfully. Like I would tune into, well, all across the 
country they did that for us.
    Senator Pryor. That is good to know.
    Mr. Logan, do you have any comment on that?
    Mr. Logan. Not specifically to your question regarding the 
United States, but I think there is one other statistic that we 
have identified. Whether it would apply here or not, I do not 
know, but I suspect that it might. In almost any displaced 
population there probably is somewhere around about 10 or 15 
percent who would have to be classified as especially 
vulnerable.
    Now, in our case it may well be that it is old folks who 
cannot get to food distribution lines. The young guys get 
there. In Africa they are up there and--but very often, that 10 
or 15 percent slips through because your planning is for the 
75, 80, 90 percent, and very often these very vulnerable 
people--maybe it could be handicapped, it could be mentally 
challenged, it could be single moms, of course, is one of the 
big problems we have in refugee camps where it is mostly women 
and children.
    But what I would say is, is that those people who are 
involved have to give some special attention to identifying 
where that 10 or 15 percent might be, because otherwise, they 
will be the ones who will drop down, and they are probably 
disadvantaged to start with, and they will slip right down 
below the radar. So I think that needs to be looked at as well.
    Senator Pryor. Let me ask about the Red Cross. Do you guys 
work with FEMA very closely?
    Mr. Logan. I really cannot answer on the basis of the 
American Red Cross. I know that of course they have as part of 
their--they are auxiliary to the U.S. Government, and they have 
a very clear mandate, and that they will be working with them 
right as we speak. I know that. The details we would have to 
ask my American Red Cross colleagues at some other time.
    Senator Pryor. My last question, I promise, Mr. Chairman. 
One thing that you have heard the Committee talk about today is 
accountability. We have a lot of money that we have 
appropriated for this region of the country, and I am curious 
about your experience in terms of scams and rip-offs. I am a 
former Attorney General of my State, and we used to do consumer 
protection, and we would see those scams and rip-offs of 
people, fly-by-night contractors and things like that, that 
would get their money up front and you would never see them 
again. So certainly we know that there is going to be some of 
that, we just know that.
    There is also the contracting process. Unfortunately, we 
have done some of this with no big contracts, and I know we 
will talk about that a lot over the coming weeks here in the 
Congress. But what is your experience with the money that goes 
in to try to help, and sometimes people try to profiteer or 
sometimes people try to take advantage of desperate situations? 
Do you have a comment on that?
    Mr. Logan. It has always been a problem internationally, 
and I suppose never, ever more than in the tsunami, which was 
the greatest sort of giving internationally that we have ever 
seen, to the point at which of the three main areas that former 
President Clinton, in his role as Special Envoy, has identified 
that require specific attention, aside from the tracking and 
the personal needs, and that is accountability. Very clearly--
and we are dealing with government authorities of 11 different 
countries in the tsunami and in many other ones--is the 
willingness and the ability to have some form of external 
auditing. In the case of the tsunami, all of the governments 
involved, all of the agencies involved like our own, have 
opened ourselves up to not only vigorous internal auditing and 
tracking and accountability, but also external.
    Clearly the complications of dealing with that amount of 
money on an international basis are very important, very 
tricky, and undoubtedly we know already from day one that we 
will be under the microscope on the whole question of 
accountability, just on that. And then you multiply that by the 
number of other disasters that we are working at 
internationally, it has become a core element of stewardship 
for the Red Cross as a movement.
    Ms. Owens. We had one construction company that was working 
with an event center we were building at the time, a $70 
million event center. So they were in the city, and we knew we 
needed somebody immediately to start helping with so many 
different things that needed these people. And the City Council 
and myself agreed to keep them on board because our others were 
all scattered.
    I was not very popular later because when it came down to 
where you could start with divvying out the jobs to the other 
people coming back for private enterprise, I had them pull 
back, and I mean they did a wonderful job, but it was time to 
turn it back to open, and that is what I did.
    Senator Pryor. Mr. Chairman, thank you.
    Senator Akaka. Thank you very much.
    I want to thank our witnesses on this hearing, Recovering 
from Hurricane Katrina: The Next Phase. I want to thank you so 
much for your testimony. It will be helpful to this Committee, 
this Committee on Homeland Security and Governmental Affairs.
    I, as Chairman, will adjourn this hearing. This hearing is 
adjourned.
    [Whereupon, at 1:50 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

                  PREPARED STATEMENT OF SENATOR WARNER
    When the framework for our nation's government was first laid out, 
the goal was the creation of a republic with limited Federal powers. 
The Founding Fathers envisioned a situation where state and local 
governments maintained the responsibility to provide public services 
and maintain public safety. However, over the past 200 plus years, the 
growth of our economies and that of our population have made the scale 
of many issues beyond the capacity of our state and local resources. 
Fortunately, advances in technology have made it possible for the rapid 
deployment of Federal and pooled state resources in times of tragedy. 
We have seen this time and time again. It is the American spirit to 
help one's neighbors in times of need and the response to Hurricane 
Katrina is truly an event that proves that fact.
    The role of the Federal Government has expanded approximately over 
the years. The challenges now are to efficiently utilize the vast array 
of resources and talents that people across this nation are willing to 
bring to the situation. I applaud Chairman Collins and Senator 
Lieberman for calling today's hearing and especially appreciate the 
specific stated purpose. We are here to discuss next steps--to make 
certain that the appropriate resources are brought into use.
    The task ahead is a difficult one. We must appropriately and 
efficiently allocate resources to manage what is likely to be the 
largest response, recovery, and rebuilding effort in modern American 
history. We have to focus on coordination among Federal, State, and 
local agencies. We also have to be certain to consider the indirect and 
long-term effects of decisions that are made. Priority one is saving 
lives and getting those who are displaced from their families, homes, 
and places of work back to a state of normalcy. But we cannot forget 
the fact that every decision has not only short term costs and benefits 
but also long term ones as well.
    As United States Senators we must remember our duty is not one of 
project managers who are involved in every detail of the response. 
True, our responsibility is one of oversight--as a Member of this 
Committee, the Environment and Public Works Committee, and as Chairman 
of the Armed Services Committee, I am receiving daily briefings and 
updates from numerous Federal agencies working on the response. 
However, at this point in time our most important role is one of 
providers.
    As Members of Congress we must make certain that the operational 
units have the resources necessary to do their work. To date, the 
Congress has provided $62.3 billion in Emergency Supplemental funds. 
More will come. We also must work to ensure that the law provides 
decisionmakers the authority to get the job done. Many agencies have 
temporarily suspended certain regulations to speed the effort, from 
weight limitations on roadways, to contracting requirements and certain 
environmental permits.
    Yesterday, I took the Senate floor to discuss the current efforts 
by the Department of Defense in the response effort. I have spoken with 
General Blum, who is the Commander of the National Guard. He never once 
flinched when he said we are doing the job and we are going to succeed. 
Our hats are off to the National Guard. The Navy deployed 20 ships, 
including the USS Harry S Truman, an aircraft carrier, and the USNS 
Comfort, the hospital ship. More than 400 aircraft, including 373 
helicopters and 93 airplanes, are in support of search and rescue, 
medical evacuation, and logistical supply missions. The amount of 
humanitarian support provided to the region is astounding. More than 16 
million meals-ready-to-eat--the old MRE or military meals--44 million 
liters of water, and more than 175 million pounds of ice have been 
delivered to date. The Army Corps of Engineers has 39 of its 137 
permanent pumps operating throughout New Orleans, with an additional 46 
military pumps operating at a lower capacity. I wonder though if there 
are limitations under current law that prevent the Department of 
Defense from bringing its full range of assets to the effort.
    I have spoken with many of my colleagues about the framework of 
laws that have served our nation well, especially the Posse Comitatus 
Act, the Insurrection laws, and to what extent we must revisit that 
doctrine. We must determine if changes are needed to meet Federal 
obligations in facing the uncertainties of the 21st Century, especially 
the new threats of terrorism and weapons of mass destruction.
    I look forward to hearing from our witnesses today about their 
experiences and specifically what they needed but couldn't get because 
of red-tape, regulatory hurdles, or even prohibition by Federal law. 
again, as Members of Congress, we can best help by providing the 
resources--through appropriations and statute--to best serve our local, 
state, and Federal agencies speed the recovery of the Gulf Coast 
states.
    Surely the task is a daunting one. But we are up to it and are 
united in our collective desire to help our brothers and sisters get 
back home.

[GRAPHIC] [TIFF OMITTED] T4244.001

[GRAPHIC] [TIFF OMITTED] T4244.002

[GRAPHIC] [TIFF OMITTED] T4244.003

[GRAPHIC] [TIFF OMITTED] T4244.004

[GRAPHIC] [TIFF OMITTED] T4244.005

[GRAPHIC] [TIFF OMITTED] T4244.006

[GRAPHIC] [TIFF OMITTED] T4244.007

[GRAPHIC] [TIFF OMITTED] T4244.008

[GRAPHIC] [TIFF OMITTED] T4244.009

[GRAPHIC] [TIFF OMITTED] T4244.010

[GRAPHIC] [TIFF OMITTED] T4244.011

[GRAPHIC] [TIFF OMITTED] T4244.012

[GRAPHIC] [TIFF OMITTED] T4244.013

[GRAPHIC] [TIFF OMITTED] T4244.014

[GRAPHIC] [TIFF OMITTED] T4244.015

[GRAPHIC] [TIFF OMITTED] T4244.016

[GRAPHIC] [TIFF OMITTED] T4244.017

[GRAPHIC] [TIFF OMITTED] T4244.018

[GRAPHIC] [TIFF OMITTED] T4244.019

[GRAPHIC] [TIFF OMITTED] T4244.020

[GRAPHIC] [TIFF OMITTED] T4244.021

[GRAPHIC] [TIFF OMITTED] T4244.022

[GRAPHIC] [TIFF OMITTED] T4244.023

[GRAPHIC] [TIFF OMITTED] T4244.024

[GRAPHIC] [TIFF OMITTED] T4244.025

[GRAPHIC] [TIFF OMITTED] T4244.026

[GRAPHIC] [TIFF OMITTED] T4244.027

[GRAPHIC] [TIFF OMITTED] T4244.028

[GRAPHIC] [TIFF OMITTED] T4244.029

[GRAPHIC] [TIFF OMITTED] T4244.030

[GRAPHIC] [TIFF OMITTED] T4244.031

[GRAPHIC] [TIFF OMITTED] T4244.032

[GRAPHIC] [TIFF OMITTED] T4244.033

[GRAPHIC] [TIFF OMITTED] T4244.034

[GRAPHIC] [TIFF OMITTED] T4244.035

[GRAPHIC] [TIFF OMITTED] T4244.036

[GRAPHIC] [TIFF OMITTED] T4244.037

[GRAPHIC] [TIFF OMITTED] T4244.041

[GRAPHIC] [TIFF OMITTED] T4244.042

[GRAPHIC] [TIFF OMITTED] T4244.043

[GRAPHIC] [TIFF OMITTED] T4244.038

[GRAPHIC] [TIFF OMITTED] T4244.039

[GRAPHIC] [TIFF OMITTED] T4244.040

[GRAPHIC] [TIFF OMITTED] T4244.044

[GRAPHIC] [TIFF OMITTED] T4244.045

[GRAPHIC] [TIFF OMITTED] T4244.046

[GRAPHIC] [TIFF OMITTED] T4244.047

[GRAPHIC] [TIFF OMITTED] T4244.048

[GRAPHIC] [TIFF OMITTED] T4244.049

[GRAPHIC] [TIFF OMITTED] T4244.050

[GRAPHIC] [TIFF OMITTED] T4244.051

                                 <all>

</pre></body></html>
